<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2010</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
  DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2010

                              ----------                              


                        WEDNESDAY, MAY 13, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:47 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Tom Harkin (chairman) presiding.
    Present: Senators Harkin, Murray, Pryor, and Cochran.

                          DEPARTMENT OF LABOR

                        Office of the Secretary

STATEMENT OF HON. HILDA L. SOLIS, SECRETARY


                opening statement of senator tom harkin


    Senator Harkin. Good morning. The Subcommittee on Labor, 
Health, Human Services, Education and related agencies will 
come to order. I'm very pleased to welcome Secretary Solis in 
her first appearance before this subcommittee. Welcome Madam 
Secretary, and again, congratulations on your appointment to 
this very important position.
    It's been less than 4 months since President Obama took the 
oath of office, and inherited our current economic crisis, the 
likes of which we haven't seen since the Great Depression. In 
January, our Nation was shedding more than 600,000 jobs a 
month, millions more working part time because they could not 
find full-time work. Businesses were slowing down. It was in 
this context that Secretary Solis began her tenure as our 
Nation's 25th Secretary of Labor.
    Madam Secretary, as you're well aware, the Department of 
Labor (DOL) carries out a critical mission that is particularly 
important in these challenging times. The Department must 
ensure that the Nation's public workforce development system is 
providing employers with access to a skilled workforce. We need 
to enforce our Nation's laws on establishing safe workplaces 
and work for economic security, but also in this time, worker 
retraining, job retraining for so many workers that have been 
displaced.
    I think we've paid too little attention to some of these 
priorities. Previous budget requests have routinely cut funding 
for job training and under-invested in Occupational Safety and 
Health Administration (OSHA) and the Mine Safety and Health 
Administration (MSHA) and the Employment Standards 
Administration (ESA). I am pleased to say that the fiscal year 
2010 budget request before this subcommittee is a very welcome 
change and appears to be consistent with my view of the 
important work supported by the Department of Labor.
    For the first time in 9 years, the budget request does not 
include a devastating cut in funding for the International 
Labor Affairs Bureau (ILAB). I want to thank you, Secretary 
Solis, for proposing a $91 million budget for ILAB, an increase 
of $5 million over the 2009 funding level.
    As I mentioned during your confirmation hearing, ILAB is a 
very important priority for me. I think it sends an important 
message around the world, the United States will help lead the 
fight against the worst forms of child labor.
    And this funding is particularly critical, as economic 
challenges around the world push back against the progress 
that's been made in recent years, in getting children out of 
dangerous workplaces and back into the classroom. As you know, 
this is the 10th anniversary of the adoption of ILO Convention 
182, and I'm hopeful that the Department of Labor, under your 
leadership, will commemorate this historic occasion. In fact, I 
was in Seattle with President Clinton when he--when we became a 
signatory to that, and then later traveled with President 
Clinton to Geneva when it was adopted by the ILO, in Geneva. 
That was 10 years ago. So I hope we at least do something to 
commemorate this 10th anniversary. For myself, I will be in 
Geneva on that day, so I won't be here to celebrate, but I hope 
that we have some commemoration of it here.
    I also want to thank you for your support of worker 
protection agencies, where the budget proposes to bring 
staffing levels back to those supported at the end of the 
Clinton administration. Enforcement staff levels are down by 
one-third at the Wage and Hour Division, and below the fiscal 
year 2001 level at OSHA.
    Many years have passed without issuing a single ergonomic 
citation, even though musculoskeletal disorders constitute one-
third of all workplace injuries. It developed an enhanced 
enforcement program that was ``enhanced'' in name only, and 
record low workplace injury rates were highlighted, despite the 
first comprehensive analysis revealing an apparent under 
accounting of workplace injuries.
    Madam Secretary, I look forward to working with you to 
change the direction of the Department of Labor's worker 
protection agencies, to ensure they have sufficient resources 
and the right strategy for carrying out their important work.
    And again, I'd like to work with you to improve employment 
opportunities for individuals with disabilities. We've talked 
about that issue--another longstanding priority of mine. I 
appreciate your proposed $37 million budget for the Office of 
Disability Employment Policy (ODEP). That's an increase of $10 
million over the 2009 level.
    Data now being released by the Department's Bureau of Labor 
Statistics reveal that roughly 80 percent of individuals with 
disabilities are not in the labor force. This is really 
unacceptable, 19 years after the passage of the Americans With 
Disabilities Act. So we must improve this situation.
    And I look forward to working with you to ensure that ODEP 
can carry out its mission, and work effectively with other 
agencies in the Government to ensure that the policies of our 
government foster improved employment opportunities for 
individuals with disabilities.
    Madam Secretary, enacting the 2010 Labor appropriations 
bill will not be an easy task. There are many worthy health, 
education, and labor programs competing for a limited 
discretionary allocation. Some will suggest that the deficit is 
too big, so Congress should simply cut spending. Others will 
express concern about programs not increased enough or proposed 
for elimination, especially during tough times when we need to 
support our workers and our workforce.
    Again, I do have some questions I will ask about the 
proposal to eliminate funding for the Work Incentives Grant 
Program and tight funding request for Job Corps. However, I 
believe the budget proposal before us establishes the right 
priorities for our Nation and will move us towards safer 
workplaces and a better skilled workforce.
    Madam Secretary, again, welcome to the subcommittee. I look 
forward to your testimony on the budget request.
    And I would yield now to our distinguished ranking member, 
Senator Cochran.


                   statement of senator thad cochran


    Senator Cochran. Mr. Chairman, thank you very much.
    Welcome, Madam Secretary, to this first hearing of our 
committee, and with your serving as Secretary, we congratulate 
you on your assumption of these important responsibilities and 
we look forward to working with you to help make sure that we 
do approve the funding levels and the programs under the 
jurisdiction of the Department of Labor that are important to 
our Nation's workforce and to our Nation-at-large. It's a big 
undertaking--it's a big building over there, too, isn't it?
    Anyway, I remember when Elizabeth Dole, I think, was there. 
No, she was at HHS. Elizabeth Dole was there. Her husband, of 
course, tended to be quick-witted and sometimes he said things 
that he wished he had taken back. And he made some comment 
about how large the building was and how many people work here. 
And somebody said, ``About half of them.''
    He said, ``About half of them.'' Anyway, I shouldn't be 
trying to tell Bob joke--Bob Dole jokes. They don't work for 
me.
    But, we know that you've indicated that there will be $135 
million in this budget for a new Career Pathways program which, 
as I understand it, will take the place of the community-based 
job training activities of the Department. It will be 
interesting to hear what your thoughts are about how that would 
be a step forward.
    Also, there's some increases, as you point out, in 
programs--or as the chairman pointed out in his comments, and 
we'll--we'll look carefully at those too, but we appreciate 
your cooperation with our subcommittee and coming here to help 
us understand the budget request.
    Senator Harkin. Thank you very much, Senator Cochran.
    Secretary Solis, again, welcome. Your statement will be 
made a part of the record, in its entirety. We were advised we 
may have a vote around 10:30 a.m., but I don't know if that's 
still true or not, but we'll try to see if we can move ahead.
    So, please proceed as you so desire, Madam Secretary.


                summary statement of hon. hilda l. solis


    Secretary Solis. Thank you very much, Chairman Harkin and 
Senator Cochran. It's good to be here before you. And also 
Senator Murray and the other subcommittee members, who I 
understand may be coming in and out today.
    I'm happy to be here today, before your subcommittee. I 
want to thank you for the invitation to testify and present you 
with the President's fiscal year 2010 budget, the request for 
the Department of Labor.
    And I'd like to just summarize my remarks and ask that my 
testimony also be entered into the record formally.
    And, just to begin with, I want to outline what our fiscal 
year 2010 overall three major priorities are.
    And they are, as you said, Senator Harkin, to begin with, 
worker protection. We're beginning to restore the capacity of 
the programs that protect workers' health, safety, pay, and 
benefits.
    Second, a green recovery. What do I mean? I mean 
implementing new and innovative ways to promote economic 
recovery by working toward energy independence, and increasing 
competitiveness of our Nation's workforce.
    And third, accountability and transparency. We will ensure 
that all of our programs are carried out in way that is 
accountable, transparent to our stakeholders and to the public.
    And in all these efforts, I'm committed to fostering 
diversity, to ensuring that our programs are accessible to 
previously underserved populations, including those in rural 
communities. And I'm particularly proud that the fiscal year 
2010 budget begins to restore programs protections for workers. 
The fiscal year 2010 budget, the Department of Labor is 
requesting $1.7 billion for worker protection programs.
    As you said earlier, Senator Harkin, it's about a 10 
percent increase for worker protection, which is above the 
fiscal year 2009 level. We're adding 878 enforcement positions. 
The budget will return our worker protection efforts to a level 
not seen since 2001. And we're increasing our capacity--so 
dramatically in a single year--which I know is unprecedented. 
But we're ready with an aggressive comprehensive hiring plan 
that will be implemented as soon as the fiscal year 2010 
funding is available.
    I want to highlight three agencies where the increases are 
most substantial due to the erosion in enforcement capacity 
over the last 8 years.
    The additional resources provided for the Wage and Hour 
Division will allow the Agency to do the following: improve 
compliance in low-wage industries that employ vulnerable 
workers; increase its focus on reducing repeat violations; and 
strategically conduct compliant investigations.
    Second, the increase for OSHA will allow us to add 213 new 
staff, such as enforcement personnel, standard writers, and 
bilingual staff to address the changing demographics in the 
workplace, as well as increase funding for our State program 
grants.
    Third, to promote equal opportunity in Federal contracting, 
through expansion of the Office of Contract Compliance 
Programs. The number compliance officers there will go to 213 
FTE.
    The increases in our enforcement programs will require, 
also, legal services and support for the Office of the 
Solicitor, where we also request an increase.
    And I'm hopeful that the Congress will meet our worker 
protection program request, to allow the Department to meet its 
responsibility to all American workers.
    And as you are aware, DOL is currently using Recovery Act 
funds for a range of activities that provide transitional 
benefits, job training, and placement assistance to unemployed 
workers. Our fiscal year 2010 request supplements Recovery Act 
funding through targeted investments in employment and training 
programs.
    For dislocated workers, a $71 million increase will go to 
the National Reserve Account, which will help to fund National 
Emergency Grants, allowing for targeted response to large-scale 
worker dislocations, as we're experiencing now.
    Through a new Career Pathways Innovation Fund, we will fund 
grants to community colleges and other educational institutions 
to help individuals advance up career ladders in growth sectors 
like healthcare and IT.
    For green jobs, the budget requests $50 million for 
enhanced apprenticeship and competitive grants. We'll also 
pursue strategies to equip all our training programs to provide 
training in the new green economy. And we've included funding, 
also, for the Bureau of Labor Statistics (BLS), to produce 
valuable information to help us define green jobs.
    Within our request for pilots and demonstrations, the 
budget also includes an investment of $50 million for 
transitional jobs, to help young and noncustodial parents gain 
employment experience and sustainable employment. The budget 
also includes $114 million to expand the capacity of the Youth 
Build Program, to train low-income at-risk youth.
    And the request for the Veterans Employment and Training 
Services contains strategic investments that will allow the 
Agency to reach out to homeless veterans, including those who 
are women; make employment workshops available to families of 
veterans and transitioning servicemembers; and to restructure 
our existing training grants to focus on green jobs.
    These innovative strategies will supplement our core 
workforce security programs that are extremely sensitive to 
economic conditions, including an increase of $860 million for 
the newly expanded Trade Adjustment Assistance Program, and 
$3.2 billion for State grants to fund the Administration of 
Unemployment Insurance, to support the increased demand on our 
State programs.
    In addition to providing States with the resources to cover 
increased workloads, our approach includes increased funding 
for reemployment and eligibility assessment, to help claimants 
return to work as soon as possible.
    I know that you share the belief that I do, that spending 
tax dollars wisely is very important to our mission and our 
core goals of putting American workers back to work. A number 
of our budget proposals support the goals of accountability and 
I'd like to name them.
    A new $15 million Workforce Data Quality initiative, which 
will help us develop data to understand the effect of education 
and training on worker advancement. A $5 million increase in 
job training program evaluations, which will help us understand 
which approaches are effective and will help inform the 
direction of future programs. And an additional $5 million 
program evaluation initiative, that will help the Department 
examine all of our programs, not just in employment and 
training.
    And I'd like to say just a few words about some other 
programs that I know you're interested in. First, the budget 
provides an increase of $10 million for the Office of 
Disability Employment Policy. The increase will allow us to 
build on the lessons we learned through the Work Incentive 
Grant demonstration, and it will allow us to promote 
opportunities for individuals with disabilities, particularly 
young people in employment apprenticeship program, pre-
apprenticeship programs and community service activities.
    And second, the budget request, as you stated, Mr. 
Chairman, will provide an increase of $5.3 million for the 
Bureau of Labor International Affairs, ILAB. With these funds, 
ILAB will be able to step up monitoring and oversight of labor 
rights, through closer monitoring and reporting on labor 
conditions worldwide, particularly with our trading partners, 
while also maintaining ILAB's Child Labor and Worker Rights 
grant activities.


                           prepared statement


    In conclusion, I'm committed to ensuring that these new 
efforts, along with all the programs supported by the 
Department's fiscal year 2010 budget, will demonstrate that we 
are putting our workers first, not just our workers, but their 
families. I ask for your support on this request and would be 
happy to respond to any of your questions.
    [The statement follows:]
                  Prepared Statement of Hilda L. Solis
    Chairman Harkin, Ranking Member Cochran, and members of the 
subcommittee, thank you for the invitation to testify today. I 
appreciate the opportunity to discuss the President's fiscal year 2010 
budget request for the Department of Labor (DOL).
    The total request for the Department in fiscal year 2010 is $104.5 
billion and 17,477 Full-Time Equivalent (FTE) employees, of which $15.9 
billion is before the subcommittee. Of that amount, $13.3 billion is 
requested for discretionary budget authority. Our budget request will 
build on the $4.8 billion in discretionary and $33.5 billion in 
mandatory resources included for the Department in the American 
Recovery and Reinvestment Act (Recovery Act).
    It is no secret that the economy is struggling. Investing in our 
Nation's workforce and creating a positive environment for new jobs is 
a critical component of the President's efforts to restart our economy. 
For its part, the Department of Labor is deploying its Recovery Act 
resources to help ease the burden of unemployment and put people back 
to work by:
  --Providing more training and employment opportunities for seniors, 
        unemployed adults, and dislocated workers;
  --Providing Summer Jobs and full-year opportunities for youth;
  --Spurring new Green Jobs training investments, to prepare workers to 
        succeed in the new green economy;
  --Enhancing and expanding the Unemployment Compensation and Trade 
        Adjustment Assistance programs;
  --Launching a new program that informs workers and their families of 
        their rights under the Recovery Act to COBRA premium 
        assistance; and
  --Initiating additional worker protections to ensure that economic 
        activity spurred by the Recovery Act occurs in workplaces that 
        are safe, healthful, and respect workers' rights.
    The resources requested in our fiscal year 2010 budget will build 
on and leverage the efforts begun this year with the Recovery Act. The 
Department's fiscal year 2010 budget will promote continued economic 
recovery and strengthen the health, safety, and competitiveness of our 
Nation's diverse workforce.
                      fiscal year 2010 priorities
    While building on the efforts begun under the Recovery Act, the 
Department's fiscal year 2010 budget features three overall priorities: 
beginning to restore the capacity of our programs that protect workers' 
safety and health, pay, and benefits; launching new and innovative ways 
to promote economic recovery and the competitiveness of our Nation's 
workers; and ensuring that our programs are carried out in a way that 
is accountable and transparent to the public and our stakeholders.
                  restoring worker protection programs
    The 2010 budget includes $1.7 billion in discretionary funds and 
10,182 FTE for DOL's worker protection activities. This funding level 
is $150 million (10 percent) and 878 FTE above the fiscal year 2009 
enacted level, and returns the worker protection programs to their 
fiscal year 2001 staffing levels. The request will restore capacity in 
our worker protection programs, which have languished for years. The 
Department has developed an aggressive, comprehensive hiring plan for 
its worker protection agencies, which it will deploy as soon as the 
fiscal year 2010 appropriation is available. Our plan places a special 
emphasis on hiring multilingual inspectors and investigators to allow 
the worker protection personnel to match the languages used in the 
workplace.
Employment Standards Administration
    The Department's Employment Standards Administration (ESA) 
administers and enforces laws that protect the rights and welfare of 
American workers. The fiscal year 2010 budget request for 
administrative expenses for ESA is $503 million and 4,538 FTE. This 
represents an increase of $63 million (14 percent) and 493 FTE above 
the fiscal year 2009 enacted level.
Wage and Hour Division
    The Wage and Hour Division is responsible for the administration 
and enforcement of a wide range of worker protection laws, including 
the Fair Labor Standards Act, Family and Medical Leave Act, Migrant and 
Seasonal Agricultural Worker Protection Act, worker protections 
provided in several temporary nonimmigrant visa programs, and 
prevailing wage requirements of the Davis-Bacon Act and the Service 
Contract Act. The Wage and Hour Division protects more than 135 million 
workers in more than 7.3 million establishments.
    The fiscal year 2010 budget requests $227.7 million and 1,571 FTE 
for the Wage and Hour Division, an increase of $35 million and 288 FTE 
from the fiscal year 2009 enacted level. It includes resources to help 
revive its customer service focus by supporting improved complaint 
intake and more in-depth complaint investigation processes. In fiscal 
year 2010, the Wage and Hour Division will hire additional 
investigators to:
  --Strengthen enforcement resources on behalf of vulnerable workers;
  --Verify future compliance of prior violators; and
  --Conduct high-quality, responsive complaint investigations 
        strategically, to increase protections for the greatest number 
        of workers.
    The fiscal year 2010 budget request for the Wage and Hour Division 
excludes $45 million in estimated fee revenue from DOL's portion of the 
H-1B and L visa fraud prevention fee authorized by the 2004 H-1B Visa 
Reform Act. Because of the statutory limits on the use of these funds, 
DOL has been unable to spend all of the fees, and each year carries 
unspent balances. The fiscal year 2010 budget proposes to cancel $30 
million of these balances as an offset to new discretionary spending. 
The administration is also proposing legislation, through the 
Department of Homeland Security, to amend the Immigration and 
Nationality Act to expand the permissible uses for the Department of 
Labor to use the H-1B and L fraud fees to carry out expanded 
enforcement activities under the H1B and L, as well as provide a stable 
source of funding for enforcement of the H-2B program.
Office of Federal Contract Compliance Programs
    The fiscal year 2010 budget request for the Office of Federal 
Contract Compliance Programs (OFCCP) totals $109.5 million and 798 FTE, 
an increase of $27 million (33 percent) and 213 FTE from the fiscal 
year 2009 level. OFCCP is responsible for ensuring equal employment 
opportunity and nondiscrimination in employment for businesses 
contracting with the Federal Government. In fiscal year 2010, OFCCP 
will carry out this mandate by conducting compliance evaluations to 
identify instances of systemic discrimination in the workplace, with a 
special focus on construction reviews and on-site evaluations related 
to veterans and individuals with disabilities. The fiscal year 2010 
request includes $2 million for a new case management system to replace 
the agency's existing case management system (the OFCCP Information 
System), which was developed over 20 years ago and is inadequate to 
meet today's enforcement needs. The new system will improve the 
monitoring of noncompliant contractors and improve the effectiveness of 
OFCCP's enforcement activities.
Office of Workers' Compensation Programs
    The fiscal year 2010 discretionary budget request for 
administration of the Office of Workers' Compensation Programs (OWCP) 
totals $108.5 million and 890 FTE to support the Federal Employees' 
Compensation Act (FECA) ($95.3 million) and the Longshore and Harbor 
Workers' Compensation program ($13.2 million).
    The OWCP budget also includes mandatory funding totaling $51.2 
million and 305 FTE to administer Part B of the Energy Employees 
Occupational Illness Compensation Program Act (EEOICPA), and $60 
million and 293 FTE for Part E of the Act. EEOICPA provides 
compensation and medical benefits to employees or survivors of 
employees of the Department of Energy (DOE) and certain of its 
contractors and subcontractors, who suffer from a radiation-related 
cancer, beryllium-related disease, chronic silicosis, or other covered 
illness as a result of work at covered DOE or DOE contractor 
facilities.
    Lastly, OWCP's fiscal year 2010 budget includes $37.5 million in 
mandatory funding and 195 FTE for its administration of Parts B and C 
of the Black Lung Benefits Act, and $58.1 million and 127 FTE in FECA 
Fair Share administrative funding. The request for FECA Fair Share 
includes an increase of $4.95 million to upgrade technology, improve 
customer service, and increase productivity.
Office of Labor-Management Standards
    The fiscal year 2010 budget request for the Office of Labor-
Management Standards (OLMS) totals $40.6 million and 266 FTE. This is a 
net reduction of $4.38 million and 31 FTE from the fiscal year 2009 
level. OLMS administers the Labor-Management Reporting and Disclosure 
Act (LMRDA), which establishes safeguards for union democracy and union 
financial integrity and requires public disclosure reporting by unions, 
union officers, employees of unions, labor relations consultants, 
employers, and surety companies. OLMS also administers the Department's 
responsibilities under Federal transit law by ensuring that fair and 
equitable arrangements protecting mass transit employees are in place 
before the release of Federal transit grant funds.
    The resources requested in fiscal year 2010 will allow OLMS to 
continue to accomplish its core mission. The reduction in FTE will 
occur through the transfer of staff to other ESA programs and 
attrition. The budget would shift those resources to other worker 
protection agencies that have faced increased workload in the face of 
diminished resources.
Employee Benefits Security Administration
    The Employee Benefits Security Administration (EBSA) protects the 
integrity of pensions, health plans, and other employee benefits for 
more than 150 million workers. The fiscal year 2010 budget request for 
EBSA is $156.1 million and 910 FTE, an increase of $13 million (9 
percent) and 75 FTE compared to the fiscal year 2009 level. The 
requested resources will help rebuild the foundation of EBSA's 
enforcement efforts, allowing an additional 600 civil and criminal 
investigations and increasing indictments by an estimated 6 percent.
Occupational Safety and Health Administration
    The fiscal year 2010 budget request for the Occupational Safety and 
Health Administration (OSHA) is $563.6 million and 2,360 FTE. The 
budget requests an additional $50.6 million and 213 FTE, and proposes 
program increases to restore OSHA's capacity to enforce statutory 
protections, provide technical support, promulgate safety and health 
standards, and strengthen safety and health statistics. The fiscal year 
2010 request supports an additional:
  --130 safety and health inspectors (a 10 percent increase from fiscal 
        year 2009);
  --25 whistleblower investigators (a 33 percent increase);
  --$13.84 million for State Program grants (a 15 percent increase);
  --13 FTE to strengthen OSHA's capacity to quickly respond to the 
        sudden emergence of safety and health hazards, such as a 
        pandemic influenza; and
  --20 FTE to restore OSHA's rulemaking capabilities, allowing the 
        Agency to simultaneously address multiple complex longstanding 
        and emerging regulatory issues.
    These additional resources will restore OSHA's enforcement presence 
in the Nation's workplace, support National and Local Emphasis 
Programs, and allow the agency to hire multilingual investigators to 
address language barriers in enforcement.
Mine Safety and Health Administration
    The fiscal year 2010 budget request for the Mine Safety and Health 
Administration (MSHA) is $353.7 million and 2,376 FTE. The request will 
allow MSHA to continue implementing the historic Mine Improvement and 
New Emergency Response (MINER) Act, the most sweeping mine safety 
legislation in 30 years.
    The fiscal year 2010 budget includes an increase of $1.3 million 
specifically targeted for 15 additional Metal and Nonmetal FTE to 
address the projected 12 percent increase in workload in the aggregates 
mining sector. The budget will ensure a 100 percent completion rate for 
all mandatory safety and health inspections; support MSHA's enhanced 
enforcement initiatives, which target patterns of violation, flagrant 
violators, and scofflaws; and continue infrastructure improvements at 
the National Mine Health and Safety Academy. The request also allows 
MSHA to continue its work to enhance mine rescue and emergency 
operations.
Office of the Solicitor
    The fiscal year 2010 budget includes $125.2 million and 679 FTE for 
the Office of the Solicitor (SOL). This amount includes $117.4 million 
in discretionary resources and $7.8 million in mandatory funding. The 
Solicitor's Office provides the legal services that support the 
Department, particularly the Department's enforcement programs. The 
fiscal year 2010 budget includes an increase of $14.8 million that will 
support an additional 82 FTE to provide expanded legal support for DOL 
client agencies, and provide $5.3 million for information technology 
and legal support infrastructure. The additional staff will better 
enable SOL to provide increased enforcement litigation, more timely 
legal opinions, and legal support for rulemaking. The $5.3 million 
request for infrastructure will increase SOL's litigation efficiency 
and improve its case management and reporting system.
Pension Benefit Guaranty Corporation
    For administrative expenses of the Pension Benefit Guaranty 
Corporation (PBGC), the fiscal year 2010 budget requests $464.1 million 
and 931 FTE, an increase of $19.3 million over the fiscal year 2009 
level. In fiscal year 2010, PBGC will strive to prevent unnecessary and 
avoidable terminations of underfunded pension plans, to mitigate the 
risk of losses to the insurance program, and to enhance recoveries in 
bankruptcy for the benefit of plan participants and the insurance 
funds. The request includes an additional $15 million to help PBGC 
respond to the threat posed by the struggling economy to defined 
benefit pension plans. These funds will support actuarial and financial 
advisory services to better understand the exposure and risk faced by 
the pension insurance program. In addition, $500,000 and three FTE are 
requested to increase the capacity of the Office of Inspector General 
to investigate PBGC's benefit payment, asset management, and 
contracting operations.
    The budget also includes a change to the appropriations language 
that ``triggers'' the availability of additional administrative funds 
if there are unanticipated pension plan termination-related expenses. 
Because of concerns that a large plan failure late in the fiscal year 
would trigger additional funds that could not be fully obligated within 
the fiscal year, the budget proposes to make these triggered funds 
available for 2 years.
                innovative workforce training strategies
    The fiscal year 2010 budget request for the Department's Employment 
and Training Administration (ETA) is $8.7 billion in discretionary 
funds and 812 FTE, not including the 131 FTE associated with the 
foreign labor certification application fees.
    We are grateful to the Congress for providing funding for the 
employment and training programs in the Recovery Act. This funding 
provides the basis of an aggressive plan to put Americans back to work. 
Our fiscal year 2010 budget request will supplement Recovery Act 
funding with the targeted investments highlighted in this section. I am 
particularly excited about the use of innovative strategies and 
programs designed to increase the skills and competitiveness of the 
American workforce, including segments of the population that have been 
underserved in the past.
Dislocated Workers
    The budget requests an increase of $71.1 million in the Dislocated 
Worker National Reserve to fund National Emergency Grants. This will 
enable ETA to provide additional, targeted resources to aid in the re-
employment of dislocated workers, as current projections indicate that 
there will continue to be high levels of unemployment into fiscal year 
2010.
    The economy, along with a major expansion of eligibility and 
benefits enacted as part of the Recovery Act, is also the primary 
factor in the request for an increase of $860 million for the Trade 
Adjustment Assistance program, which will support training and income 
support for trade-impacted workers. States that assist workers who lose 
jobs will also receive $3.2 billion for the administration of 
unemployment insurance based on estimates of claims workload for the 
fiscal year.
Career Pathways Innovation Fund
    The fiscal year 2010 budget requests $135 million for the Career 
Pathways Innovation Fund, which is a $10 million increase over the 
amount awarded in fiscal year 2009 through Community-Based Job Training 
Grants. Competitive grants provided by the new fund will continue the 
support for community colleges provided by Community-Based Job Training 
Grants, but will focus on career pathway programs at community 
colleges. These programs help individuals of varying skill levels enter 
and pursue rewarding careers in high-demand and emerging industries.
    Career pathway programs are clear sequences of coursework and 
credentials, each leading to a better job in a particular field, such 
as healthcare, law enforcement, and clean energy. These programs have 
multiple entry and exit points and often include links to services, 
such as basic adult education and English-as-a-Second Language classes, 
which make them accessible to individuals who are not yet prepared to 
enroll in college courses. Career pathways are a relatively new 
strategy for community colleges, but several existing programs have 
shown promising outcomes.
    The Department will work with the Department of Education as it 
develops and implements this new initiative, especially to gain insight 
into curriculum development, the importance of credit transferability, 
and linkages between community colleges and K-12 education.
Green Jobs
    The budget requests $50 million for a Green Jobs Innovation Fund, 
which will complement the competitive grant awards made through the 
$500 million appropriation included for high growth and emerging 
industry sectors under the Recovery Act. The Department is considering 
several targeted strategies for these funds, including: (1) enhanced 
apprenticeship opportunities in green industry sectors and occupations; 
(2) competitive grants for green career pathways, focusing on 
developing educational opportunities in green industries; and (3) 
incentives for innovative partnerships that connect community-based 
organizations in underserved communities with the workforce investment 
system to promote career advancement in green industry sectors.
YouthBuild
    The fiscal year 2010 budget includes $114 million, an increase of 
$44 million, or 64 percent, over the fiscal year 2009 enacted level for 
YouthBuild to provide competitive grants to local organizations for the 
education and training of approximately 7,100 disadvantaged youth ages 
16-24. Under these grants, youth will participate in classroom training 
and learn construction skills by helping to build affordable housing. 
In fiscal year 2010, the Department will continue the ``green'' 
transition of YouthBuild by encouraging connections with other Federal 
agencies involved in creating green jobs, such as the Department of 
Housing and Urban Development (HUD) and the Department of Energy in 
order to leverage resources and new ``green'' opportunities for 
YouthBuild participants.
Transitional Jobs
    The fiscal year 2010 budget proposes $50 million to demonstrate and 
evaluate transitional job program models, which combine short-term 
subsidized or supported employment with case management services to 
help individuals with significant employment barriers obtain the skills 
needed to secure unsubsidized jobs. The initiative will target 
noncustodial parents to strengthen their workforce skills and 
experience, and help the children who rely on them for support. The 
Department will carry out this demonstration collaboratively with other 
Federal agencies, such as the Departments of Health and Human Services 
and Justice. We will work with partner agencies to develop and 
implement a rigorous evaluation strategy for this demonstration.
Reintegration of Ex-offenders
    The fiscal year 2010 budget requests $115 million, an increase of 
$6.5 million over the fiscal year 2009 enacted level, for a program 
that brings together projects for adult and youth offenders. A portion 
of the funding will be used to support ex-offender programs under the 
Second Chance Act, and provide job training, mentoring, and 
transitional services to ex-offenders. The funding will also support 
grants to target juvenile and young adult offenders, and youth highly 
at risk of involvement in crime and violence.
Strengthening Unemployment Insurance Integrity and Promoting Re-
        employment
    The economic downturn has placed great stress on the Unemployment 
Insurance (UI) system, which finances the unemployment compensation 
program. In addition to financing the administration of State 
workloads, the administration is committed to protecting the financial 
integrity of the UI system, and to helping unemployed workers return to 
work as promptly as possible. Our approach includes:
  --A total of $50 million in discretionary funding, an increase of $10 
        million over the fiscal year 2009 enacted level, to expand 
        Reemployment and Eligibility Assessments, which include in-
        person interviews at One-Stop Career Centers with UI 
        beneficiaries to discuss their need for re-employment services 
        and their continuing eligibility for benefits. This initiative 
        has helped UI beneficiaries find jobs faster and reduced 
        payments to ineligible individuals.
  --A package of legislative changes that would prevent, identify, and 
        collect UI overpayments and delinquent employer taxes. We 
        estimate that these legislative proposals would reduce 
        overpayments by $3.9 billion and employer tax evasion by $300 
        million over 10 years.
    In addition, the administration will seek reform of the UI 
program's permanent Extended Benefit (EB) feature to improve its 
efficiency as an automatic economic stabilizer and streamline 
administration. We urge the Congress to act on these important 
proposals to strengthen the financial integrity of the UI system and 
help unemployed workers return to work.
Senior Community Service Employment Program
    The fiscal year 2010 budget proposes $575 million for the Senior 
Community Service Employment Program (SCSEP), which will enroll some 
90,000 low-income seniors in part-time, minimum wage community service 
jobs. The request includes an additional $3.5 million over the fiscal 
year 2009 enacted level to finance the increase in the Federal minimum 
wage that will occur on July 24, 2009. ETA will focus its technical 
assistance efforts on transitioning seniors in programs funded by the 
Recovery Act into the regular 2010 program with minimal disruption.
Job Corps
    The budget includes $1.7 billion to operate a nationwide network of 
124 Job Corps centers in fiscal year 2010. Job Corps provides training 
to address the individual needs of at-risk youth and ultimately equip 
them to become qualified candidates for the world of work. Job Corps 
received $250 million from the Recovery Act, which it is using to fund 
shovel-ready construction projects that stimulate job growth in center 
communities. In addition, the Recovery Act funds are promoting 
environmental stewardship in Job Corps by supporting development of 
green-collar job training, technology enhancements, and fleet 
efficiency.
Veterans' Employment and Training Service
    When it comes to training and employment, we will never forget our 
commitment to our veterans. For the Department's Veterans' Employment 
and Training Service (VETS), the fiscal year 2010 budget request is 
$255 million and 234 FTE. The fiscal year 2010 budget includes $35 
million for the Homeless Veterans Reintegration Program (HVRP), an 
increase of $9 million (34 percent) above fiscal year 2009. The request 
will allow the program to provide employment and training assistance to 
an additional 7,200 homeless veterans, with an increased emphasis on 
aiding homeless women veterans. The budget also includes a $2 million 
increase for Veterans Workforce Investment Programs to provide services 
to veterans that will result in new skills and employment in Green 
Jobs. In addition, the budget requests an increase of $3.5 million to 
expand access to the Transition Assistance Program (TAP) for spouses 
and family members (including those with limited English proficiency). 
TAP Workshops play a key role in reducing jobless spells and helping 
servicemembers transition successfully to civilian employment.
    I place a strong priority on ensuring that the innovative programs 
I have described above are available to persons in all communities 
across our Nation, including those living in rural communities. I am 
eager to partner with my colleagues in the Cabinet and you to ensure 
this happens.
                ensuring accountability and transparency
    Spending tax dollars wisely helps the Department achieve our 
mission on behalf of America's workers, and builds trust among our 
stakeholders. We are committed to ensuring a sense of responsibility, 
accountability, and transparency at the Department of Labor. Our fiscal 
year 2010 budget supports those goals.
Workforce Data Quality Initiative
    The fiscal year 2010 budget requests $15 million for a Workforce 
Data Quality Initiative of competitive grants to support the 
development of longitudinal data systems that integrate education and 
workforce data. Longitudinal data systems track individuals as they 
progress through the education system and into the workforce. Some 
States have developed comprehensive systems that link individuals' 
demographic information, high school transcripts, college transcripts, 
and quarterly wage data. These data systems can provide valuable 
information to consumers, practitioners, policymakers, and researchers 
about the performance of education and workforce development programs.
    The Department will work to develop this grant program with input 
from the Department of Education. Grants will help States to 
incorporate workforce information into their longitudinal data systems, 
as well as undertake activities to improve the quality and 
accessibility of performance data reported by training providers. 
Improving information available from training providers is crucial to 
helping consumers make informed decisions when choosing among training 
programs.
A Renewed Commitment to Program Evaluation
    In recent years, the Department's evaluation capacity has eroded, 
and it has funded too few high-quality evaluations of its programs. The 
administration and the Department recognize the need to conduct a 
rigorous evaluation agenda to determine which programs and 
interventions work and inform its policy, management, and resource 
allocation decisions. The fiscal year 2010 budget provides $5 million 
for a new Department-wide initiative to support rigorous evaluations 
across the Department of Labor. The new initiative will allow expansion 
of evaluation activities to other programs, with a priority on large, 
lightly examined, and/or high-priority programs. In addition, the 
budget requests an increase of $5 million for ETA's evaluation budget 
for job training and employment programs. As part of this initiative, 
the Department of Labor would look to build partnerships with the 
academic community and other outside parties to leverage private-sector 
research activities; make public its research and evaluation agenda, 
and develop the agenda based on feedback from the public, Congress, and 
its stakeholders.
                             other programs
Bureau of Labor Statistics
    In order to maintain the development of timely and accurate 
statistics on major labor market indicators, the fiscal year 2010 
budget provides the Bureau of Labor Statistics (BLS) with $611.6 
million and 2,416 FTE. This funding level provides BLS with the 
necessary resources to continue producing sensitive and critical 
economic data, including the Consumer Price Index (CPI) and the monthly 
Employment Situation report. In addition, the fiscal year 2010 budget 
includes an increase of $8 million and 10 FTE to produce new data on 
employment and wages for businesses whose primary activities can be 
defined as ``green,'' and produce information on the occupations 
involved in green economic activities.
Office of Disability Employment Policy
    The fiscal year 2010 budget provides the Office of Disability 
Employment Policy (ODEP) with a total of $37 million and 49 FTE, an 
increase of $10 million (39 percent) over fiscal year 2009. With the 
increase, ODEP will support a new initiative that builds upon the 
lessons learned through the Work Incentive Grant demonstration 
Disability Navigators, and focuses on working with employers, the One-
Stop system, and other stakeholders to vigorously promote the hiring, 
job placement, and retention of individuals with disabilities, 
particularly youth, in integrated employment, apprenticeship, and pre-
apprenticeship programs, and community service activities. The fiscal 
year 2010 budget also proposes ``Add Us In!''--a new grant program for 
minority youth with disabilities who are transitioning from school 
(secondary or postsecondary) to employment and are interested in 
entrepreneurship. Financed within ODEP's base budget, the initiative 
would feature collaboration with minority chambers of commerce.
Bureau of International Labor Affairs
    The fiscal year 2010 request for the Bureau of International Labor 
Affairs (ILAB) is $91.4 million and 95 FTE. The request provides an 
increase of $5.3 million and 12 FTE to allow ILAB to step up its 
monitoring and oversight of workers rights. This will involve closer 
monitoring and reporting on labor conditions worldwide, with a goal of 
reducing violations of worker rights and incidents of child labor, 
forced labor, and human trafficking. The fiscal year 2010 budget will 
maintain ILAB's child labor and worker rights activities at the fiscal 
year 2009 level
Women's Bureau
    The fiscal year 2010 budget includes $10.6 million and 52 FTE for 
the Women's Bureau. This budget will allow the Women's Bureau to 
continue its mission of designing innovative projects addressing issues 
of importance to working women and providing information about programs 
and polices that help women attain high paying, career ladder jobs in 
nontraditional fields, including opportunities in green industry 
sectors and occupations.
                               conclusion
    With the resources we have requested for fiscal year 2010, the 
Department will step up its enforcement of worker protection laws; 
provide innovative training and employment programs that promote green 
investments while ensuring diversity and inclusion; increase employment 
opportunities for our Nation's veterans and their families; and ensure 
our programs are accountable and understandable to the public and our 
stakeholders.
    Mr. Chairman, this is an overview of the programs proposed at the 
Department of Labor for fiscal year 2010. I am happy to respond to any 
questions that you may have.
    Thank you.

    Senator Harkin. Thank you very much, Madam Secretary. 
Again, I really appreciate the focus you've made getting back 
in the game on OSHA and worker protections. And what you're 
doing on dislocated workers, especially during this period of 
time, and on the green jobs. I just, again, commend you and 
President Obama for focusing on this area.
    And as I understand it, you're looking at the green jobs in 
different areas and different programs that you have under your 
jurisdiction. One of those is the Career Pathways Innovation 
Fund for community colleges. It's been my experience that a lot 
of these community colleges are the ones that are really in the 
forefront of developing curricula and teaching our kids these 
new green jobs technologies.
    And so I hope that the Pathways Fund will be used for 
getting more program information to community colleges for them 
to use for developing these new careers in renewable energy and 
wind energy and transportation. There are a lot of different 
things that they're teaching in the community colleges.
    Thank you very much for your increase in ODEP. This is 
something that we just can't fall back on and we've got to 
continue our efforts to get more people with disabilities 
employed. And of course the ILAB on keeping our position, as a 
leader in the world, and on getting rid of the worst forms of 
child labor.
    I remember--I was driving to work one day and I was 
listening to--what do I listen to in the morning, 81.5, WAMU--
and it was talking about, this was a couple months ago--and 
about the impact that President Obama has had on young people. 
And there was--this inner city school teacher talking about how 
kids in her classroom were now, paying more attention and 
taking pride in their schoolwork.
    And she had this one kid, she said, who'd been noted as a 
trouble maker. And this kid said something like, ``They say I'm 
a trouble maker and my teacher says I'm impossible. Well, I 
want to be possible.'' And, I think that's the kind of spirit 
that has come from President Obama, that kids want to be 
possible.
    So, we've got to focus a lot on our minority youth in this 
country, and their training and their skills, and their 
education, and making sure that they can become possible, like 
this one young man said.
    So, that's your job. I mean, that's the job that I see at 
the Department of Labor, what you can do is you can really 
carry this out and focus on the areas of getting our young 
people trained for the careers of tomorrow.

                EMPLOYMENT OF PERSONS WITH DISABILITIES

    The only questions I have is on the employment of persons 
with disabilities. You requested $10 million over last year, I 
thank you for that. But, then again, we look at a $17 million 
Disability Navigators Program that was funded through the Work 
Incentives Grants.
    Now those Disability Navigator Grants were often used to 
increase physical and program accessibility at your one-stop 
centers. Well, that's going away and now we have a $10 million 
increase. So, am I really looking at a $7 million decrease in 
funding?
    I'm just concerned about the wide-ranging problems with 
accessibility and participation of job seekers with 
disabilities in the one-stop system. Can you assure me that 
this issue, which was previously the focus of the Disability 
Navigators--that was funded under the Work Incentives Grant 
program--will continue to be a priority of this Department?
    Secretary Solis. Mr. Chairman, Senator Harkin, yes. I would 
say that one of the things that--and please keep in mind that I 
have only been in office, not even 3 months yet, and I did come 
in at a time when the budget was somewhat already being 
prepared.
    Senator Harkin. Right.
    Secretary Solis. So, it was very interesting to be in those 
discussions. But I continue to remain very supportive of the 
notion that we have to really fully integrate services for our 
disabled population, at every point in our agency, where we 
can. So, not just at the one-stops, but also in our efforts--
and I think I may have mentioned this at our confirmation 
hearing--we're going to see an unusually large number of 
returning veterans, that are going to have severe brain injury 
and traumatic stress.
    We also need to expand what we do with the disabled 
community, in addition to those that are currently here and 
have not found employment. And I would hope that our State 
agencies will work with us now, because these demonstration 
programs that you note, the Navigator Program, have been in 
existence--and they were supposed to be demonstration 
projects--the funding has now been fully exercised there. My 
hope is to get, and our directives are, that the State agencies 
will pick up that responsibility, as well.
    So, I'm going to do whatever I can to make sure that 
happens, and then hopefully work with this subcommittee to see 
that we can increase our efforts to collaborate, not just 
within DOL, but also with DOE, and with other agencies, the 
Veterans Administration as well, to see how we can expand the 
services and work intersegmentally with these other agencies, 
and also have pools of money, where we can do a little bit 
better targeting.
    I think this is going to be a great opportunity for us. I'm 
very excited. Once I have my leadership in place in ODEP, that 
we're going to have, I think, some very innovative strategies 
to bring back to you in this subcommittee.
    Senator Harkin. I appreciate that. Well, I look forward to 
working with you in that area.
    I have another question, but I will do it in another round 
if we have time. At this point, I just yield to Senator 
Cochran.

                       GULFPORT JOBS CORPS CENTER

    Senator Cochran. Mr. Chairman, thank you very much.
    Madam Secretary, we appreciate the call you made the other 
day to advise us of the release of--of funds under the National 
Emergency Grants (NEG)--there are more acronyms in this budget 
than in any budget--it's the National Emergency Grant, and it 
was an extension of a grant that had been made and approved to 
the State of Mississippi by the Department of Labor. And they 
had requested additional funding, and your call indicated that 
that had been approved. And I just wanted to thank you for 
that, and encourage the Department to continue to monitor the 
needs that exist on the Mississippi Gulf Coast, as a result of 
Hurricane Katrina.
    One example, is a Job Corps center that was destroyed in 
the hurricane, and it has not been rebuilt. We were hopeful 
that funds would be made available for the Gulfport Jobs Corps 
Center. And it was scheduled to be opened, reopened in August 
of this year. There's an interim modular building, I think, 
being used right now for about 150 students, but we hope that 
that can be accelerated and we can move toward a completion of 
that center at an early date.
    Do you have anything in your notes about that?
    Secretary Solis. Yes, I do, Senator Cochran. And, I realize 
that I also inherited this--this challenge, and we will work 
diligently to try to really streamline the process so that we 
can get this up and moving in, hopefully, a shorter timeframe; 
2011, I believe is what we're looking at, to fully operate the 
Job Corps Center. And meanwhile, as you said, we do have other 
transitional modulars that are out there to help with the 
different Job Corps students that need assistance.
    I do want to mention that during Katrina and the recovery 
effort, that the Youth Build Program was very, very involved in 
helping to provide assistance, construction, other types of 
exercises that they were fully involved in. So our programs are 
working, and I just wanted to report that to you, that we're 
watching and monitoring and want to continue to work with you 
and to see that this Job Corps Program is fully implemented and 
that it's up to speed and ready to go, in a shorter period of 
time.
    Senator Cochran. Well, we appreciate your personal interest 
in that goal, and thank you for your attention to that. We had 
in our committee report that that Youth Build Program, which 
specifically was actively engaged in the construction of new 
homes and helping rebuild neighborhoods and communities all 
along the Gulf of Mexico. So, we appreciate that.

                       DISLOCATED WORKER PROGRAM

    There was a decrease in funding, that we were advised 
about, for the State of Mississippi of 50.4 percent, a 
reduction which amounts to $13.8 million below the amount the 
State received in WIA funds in fiscal year 2008. I'm advised 
that funds are distributed to States based on the State's 
unemployment rate and the rise in its unemployment rate 
compared--as compared with other States.
    I think what has happened is, that in other States, 
unemployment rates have increased over the previous years, at a 
higher level than they did in Mississippi, and so our State 
ended up getting a decrease in funding, as compared with--with 
the funds received from other States. Is there any--is there 
any plan to address that or to make a request for supplemental 
funding, so that a State can be held harmless? The unemployment 
rate is still high, there are probably more people unemployed 
than there were last year, but because other States have much 
higher unemployment rates, Mississippi loses money and it gets 
transferred to other States. That's the way I read that.
    Secretary Solis. Yes.
    Senator Cochran. Is that the way that program works?
    Secretary Solis. Unfortunately, you hit it right on the 
nose, Senator. The program you're talking about is Dislocated 
Worker Funding, and it's a formula-based funding. So, those 
formulas are set by--by you, the Senate and the Congress. And 
unfortunately, I understand this is an issue that we may want 
to address as we go through WIA reauthorization. I know some 
members are very concerned about this. And I also agree that 
something has to be done.
    In my request, before you, I'm asking for an additional $71 
million in the NEG, so we can address this issue as soon as we 
can. That isn't the cure-all though; the long-term problem is 
we have to fix the formula so that when crises like this occur. 
We are hoping to be able to not penalize States and hold them 
harmless when they're--when you see continuing unemployment 
rate that just is not going down over a period of 2 years.
    The program wasn't intended to fund as many States in this 
manner, is what I believe, and so, yes, this is a crisis and we 
have to take measures to modify that. So I will work--I would 
love to work with you, Senator, and with this subcommittee, and 
other members who have already expressed concern about this 
issue.
    Senator Cochran. Thank you very much.
    Senator Harkin. Thank you, Senator Cochran.
    Senator Murray.
    Senator Murray. Thank you very much.
    And, Secretary Solis, welcome to this subcommittee. Thank 
you for your conversation yesterday and for all the work that 
you are doing. I really appreciate you having this hearing 
today.
    Following up on Senator Cochran, I had a question on the 
same thing, because this does have to do with the distribution 
of the WIA funds for the Dislocated Worker Program. When we 
originally set up the formula for this, it was meant to be 
dynamic so that it could react to the ebb and flow of a 
turbulent economy, but the formula has actually now impacted 
some States in a negative way. And we are going to have to 
figure out how to do that in the future, so that we don't end 
up in a situation--my State is estimated to lose about $200 
million under the current challenge that we've got.
    You mentioned using some of the NEG to fill in the gaps. Do 
you need an additional appropriation from the Senate bill to do 
that or are you going to use what you currently have until we 
can meet those obligations?
    Secretary Solis. Senator Murray, thank you for your 
question. We're going to try to exhaust the $1.2 billion 
that's--that has been provided in the Recovery Act, and I'm 
assuming that that may go more quickly than we assume. So, we 
are requesting the $71 million to help--to help that.
    Senator Murray. Okay, could you let us know where you are 
with that formula--or with the NEG grants and where the 
shortfalls are, and when you expect to hit them, because a 
number of States have been impacted?
    Secretary Solis. Absolutely.
    Senator Murray. Okay, thank you.

                   PELL GRANTS FOR UNEMPLOYED WORKERS

    I wanted to ask you--on Friday, the President announced an 
initiative to ensure that those who are unemployed will be 
eligible for Pell Grants. Has your budget team and the budget 
team of the Department of Education (DOE) come up with an 
estimate of the amount of funds that will be necessary to carry 
out that extension?
    Secretary Solis. Senator Murray, as I spoke with you 
regarding this issue, we are--we are now looking at how this 
program will be implemented. I don't have that figure in front 
of me at this moment, because our staff is working on that now. 
But I know this is something that--I know you have a great deal 
of concern and I expressed to you that I--through your 
leadership, we want to work with you to make sure that we do 
the best, in terms of implementing this, and try to do the 
best, in terms of delivery and efficiency.
    I think it's an exciting program. I'm not sure quite how 
DOE and ourselves will have all the mechanics, but I know our 
staff is working on it. It's an exciting topic, but I have 
similar concerns that you might have.
    Senator Murray. I agree that it's much needed and, you 
know, in the right direction. I just want to know what our--our 
cost is going to be and how that's going to be appropriated or 
if it will come from other funds. So if you can work with the 
Department of Education and come back and let us know what the 
costs of that are going to be.
    Are you considering expanding that to immediate family 
members or does the proposal include immediate family members, 
children of unemployed workers, or is it just the worker 
themselves?
    Secretary Solis. I don't have all the specific details 
because this has just been rolled out Friday, but my 
understanding, it's for unemployed workers--we haven't really 
discussed what other family members would be impacted.
    So, certainly I will get back to you as soon as I can, and 
possibly later today.
    Senator Murray. Okay, I appreciate that very much.

                          FUNDS FOR JOB CORPS

    Also, I wanted to ask you about the funds for Job Corps, 
which is the largest program in the Federal Government to help 
our at-risk youth. It targets some of our hardest-to-serve 16 
to 24-year-olds, many of them with criminal records, most of 
them with poor reading and math skills, and probably with very 
limited attachment to any kind of school or labor market.
    I have been told that this is a time when our young adults 
are facing the worst job market since World War II, so I am 
following the Job Corps very closely; I think it's a very 
important part of our dealing with that challenge. It's a 
public/private partnership with 94 of the 122 Job Corps Centers 
that are run today by corporations and private, not-for-profit 
organizations, and it is a competitively awarded contract. I 
think it's a really good program.
    I was concerned it was flat-funded in your budget request. 
Do you think this is a program that needs to have some 
increased cost, particularly at this economic time when a lot 
of our kids are facing some real challenges?
    Secretary Solis. I think that what we're looking at right 
now is still the $37 million that was provided through the 
Recovery Act. That was a substantial increase, overall. So, 
that also does set somewhat of a precedent.
    What I'm looking at now is trying to make sure that we can, 
also as Senator Harkin was saying earlier, the chairman, about 
trying to make sure that these programs really have career 
ladders, that we also look at opportunities to go to a 
community college, or a tech or vocational school and get a 
certificate, but also green these programs. So, that's also 
going to take additional focus and funds.
    Job Corps programs, I think, are wonderful. I've seen them 
in effect even here in the District, in D.C., and they're not 
all green jobs--obviously you have people that are going into 
healthcare, and I think that there's--it's worthwhile to have a 
discussion, to see how there can be some innovation provided in 
Job Corps.
    I think their goal, the focused population that they have, 
is well-meaning. But I do think there can be more that we can 
provide, in terms of assistance.
    Yesterday, when I spoke before the Appropriations Committee 
in the House, there were concerns, also, about funding that may 
not be as exuberant at this time----
    Senator Murray. I appreciate that the Economic Recovery 
package has money for this, but if we don't have long-term, 
sustained requests for beyond the timeframe of the Economic 
Recovery package, we're going to be in a very bad place.
    So, this is something I care a lot about, Mr. Chairman, and 
I hope we can work it out.
    Secretary Solis. Senator Murray, if I can just explain, 
also, one of the things I would like to do as Secretary of 
Labor, is to put Job Corps back with the other programs in the 
Employment and Training Administration.
    Senator Murray. I saw that proposal, actually.
    Secretary Solis. And really try to make more meaningful, 
what we're doing with all of our youth. So there is more 
coordination, there's no overlap, and that we really focus in, 
in a more meaningful way. And this will be a good opportunity, 
and that's a prerogative that I have as Secretary of Labor.

                           PREPARED STATEMENT

    Senator Murray. Okay, very good. I appreciate that.
    Thank you.
    [The statement follows:]
               Prepared Statement of Senator Patty Murray
    Thank you, Mr. Chairman, for holding this hearing to examine the 
President's fiscal year 2010 budget proposal for the Department of 
Labor.
    I would also like to extend my appreciation to Secretary Solis for 
coming before this subcommittee to discuss the administration's 
proposal.
    America's working families are facing some of the toughest economic 
challenges in a generation. As of last month, more than 13 million 
people were unemployed in this country. And, we've lost 5.7 million 
jobs since the recession began.
    Too many parents are forced to choose between going to work and 
taking care of a sick child. Families are struggling to pay tuition, or 
keep food on the table--and many depend on weekly unemployment 
insurance benefits because the pool of jobs has dried up in their 
communities.
    America's working families are looking for hope, and they are 
looking for a champion. Hope that they'll be able to stand on their own 
once again, and a champion to stand up for them when they aren't able 
to stand up for themselves.
    And I believe that a restored and focused Labor Department can do 
just that--it can help the millions of unemployed job seekers find 
training for careers in new, growing industries. It can help them 
access the benefits they need to get by until they can stand on their 
own again. It can help keep them safe and healthy in the workplace, and 
guard against unfair labor practices. And, it can be their advocate at 
the highest levels of the administration during this economic recovery.
    I believe that this administration is committed to making working 
families a priority once again in this country.
    And, for the most part, the President's budget proposal for the 
Department of Labor reflects that commitment.
    As the chair of the Subcommittee on Employment and Workplace 
Safety, I was particularly encouraged to see the significant 
investments in labor protections and workplace safety and health across 
the Department. I was pleased to see a proposal to strengthen State 
Occupational Safety and Health Administration (OSHA) programs, like the 
one in my home State of Washington, that extend the work of national 
OSHA, but, for too long, have not had sufficient resources.
    And, I'm glad to see a renewed investment in quality data, 
evaluation, and reports so that Congress and the public can clearly see 
which efforts work and which don't.
    I was also pleased to see an effort to move Job Corp back to the 
Employment and Training Administration where it belongs.
    And as the author of the Promoting Innovations to the 21st Century 
Act, a bill focused on career pathways for young people, I was very 
pleased to see a focus on pathways under the Workforce Investment Act 
programs.
    While I'm very pleased with most of the budget, I do have some 
concerns about the priorities reflected in the Workforce Investment Act 
proposed levels.
    I appreciate the fact that the Department did not cut these funds, 
but I had hoped for a significant investment in job training programs--
particularly as our Nation works to recover from this recession.
    I fought for the Recovery Act to include a $4.2 billion investment 
in jobs training, a much needed shot in the arm for a system that's 
been neglected during the last administration and had its capacity to 
serve large numbers of job seekers severely diminished.
    And while this was a strong step in the right direction, I believe 
that we need to do more to rebuild the system's capacity and adequately 
serve our workers.
    For example, those areas that are rebuilding their summer youth 
programs with the investment we made in the Recovery Act, may not be 
able to sustain them at the recommended 2010 levels.
    I hope that as we move forward and learn more about the impacts of 
the Recovery Act funds, that you will work with me and this 
subcommittee to strengthen and focus our investments in education and 
training for America's workers.
    As we've discussed several times, I'm committed to reauthorizing 
the Workforce Investment Act. And I want to ensure we're investing in 
our workers to help them get the training they need to fill the high-
skill, high-wage jobs of the future, and help get our economy back on 
track.
    I'm also concerned that the proposal for Job Corps funding levels 
sends the wrong message. It's a valuable program that serves as a 
second chance for many youth in our country, and in these tough 
economic times I think it should be a priority.
    And, while the funding levels for the Senior Community Service 
Employment Program received a bump, it only covers the minimum wage 
increase. And, it still serves less than 1 percent of the eligible 
population, low-income older workers who struggle to find jobs. I hope 
that you will work with Congress to find a solution that strengthens 
this program moving forward.
    I look forward to hearing from you today, Secretary Solis, and to 
our continued partnership.

    Senator Harkin. Thank you, Senator Murray.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.

                    COBRA PREMIUM ASSISTANCE PROGRAM

    Madam Secretary, let me start with a question that is more 
immediate, and that is on the COBRA Premium Assistance program, 
I think you mentioned it in your opening statement.
    We've had--and I'm sure that the other Senators have had--
lots of calls and concerns and confusion about--from unemployed 
workers--about the COBRA provision in the Recovery Package. Can 
you just give the subcommittee, here, a little update on the 
initiative you're working on, and how the effort is going to be 
set up?
    Secretary Solis. There is--thank you, Senator--there is a 
lot of interest in the program. In fact, reports we're getting 
back from our regional offices is that there's an overwhelming 
number of individuals, participants, who want to know how to 
get involved in the program. And it is----
    Senator Pryor. We get a lot of those calls, too.
    Secretary Solis. There's a lot of calls. In fact, I'm not 
quite sure that our systems are really prepared to receive all 
of those incoming calls.
    I know that there will be--that we are anticipating that 
there will probably be a process that may prolong itself in 
terms of appeals that might be made, because there also has to 
be substantiation of where the individual was working. So, that 
will require some backup, or it will happen as a consequence of 
all of these calls.
    So, I am concerned about that, and our staff is doing 
everything we can. I don't have my full leadership in place, 
yet, so that's also been a hindrance, because I have to rely on 
the current staff that are there.
    So, it's a challenge, but it's one that I know we are very, 
very focused on, and we'd like to get back to you with more 
details.

                       UNEMPLOYMENT OVERPAYMENTS

    Senator Pryor. Okay, let me ask, if I can, about 
unemployment insurance. There's a--in the budget the 
administration puts forward an idea to reduce unemployment 
overpayments by about $3.9 billion. What is going on in this 
system where, you know, it sounds like $3.9 billion, you've got 
a lot of people who are overpaying every year. Can we fix that 
system? Do you feel like the Department of Labor is on top of 
that?
    Secretary Solis. That is going to be a priority for this 
Department. This also came up yesterday in our hearings before 
the House appropriators, and it is something that we know we 
will need resources to do a better job to focus here, to go 
after those fraudulent claims and collect that money.
    So, it will be a priority for this new administration.

                         EMPLOYMENT STATISTICS

    Senator Pryor. One of the things that your Department does, 
it may be kind of mundane, but that's important to a lot of 
people that statistics are tracked by the Bureau of Labor 
Statistics. I know, last year we had someone calling our 
office, they were trying to get a handle on--I think it may 
have been on an economic development issue, I don't recall 
right now, but they were trying to get a handle on some real 
specific statistics for Arkansas. And basically, I think what 
they wanted was local employment statistics, and the Bureau of 
Labor Statistics told us that they're no longer collecting or 
disseminating the specific statistic my constituent wanted.
    And I notice in the budget there's an $8 million increase 
for the BLS, Bureau of Labor Statistics--do you know if you are 
going to restore some of the things that you used to do? Do you 
know anything about that?
    Secretary Solis. Senator, I don't know specifically about 
the response with respect to your State, but certainly the 
monies that we are requesting will go into also helping to look 
at jobs in the green industry, but also looking at where we are 
not doing a good job in terms of gathering data on 
disabilities, on different populations.
    And certainly, one of my concerns, as a former member of 
the House, was always wanting to have a quick response in terms 
of what our cities, our locales, what those figures were. And I 
can tell you in all honesty, that I would always look up in my 
local paper, what the local States have, because they typically 
have the best information. I know that our Bureau coordinates, 
but we need to have a better approach to having that more 
immediately.
    So, I know I will be working very closely, I think this is 
something very important, and we do have to reconfigure what, I 
believe, some of the priorities are in the BLS. And of course, 
this is going to be a challenge, and we'll need to work closely 
on this.
    Senator Pryor. Great, thank you.

               VETERANS' EMPLOYMENT AND TRAINING SERVICE

    And the last question I had was about, something that's a 
follow-up to one of your earlier questions and your opening 
statement, the Veterans' Employment and Training Service--you 
have the request of $225 million. Do you feel like that's 
sufficient, given the fact that we have so many folks coming 
back from Iraq and Afghanistan and given the tempo that the 
military's been at, recently. Do you feel like that $255 
million is sufficient?
    Secretary Solis. Senator, I want to be as honest as I can. 
I still have yet to be able to place my leadership team 
together in that particular unit, so I'm awaiting that. But my 
personal commitment is that we need to do everything we can to 
coordinate with other Federal agencies. We certainly have a key 
component in helping to help folks that are coming back to get 
back into their job, and we're finding that a lot of veterans 
are not being re-employed. That is going to, obviously, take a 
lot of effort, and hours to do that.
    But we also want to expand how we work with veterans and 
with their families and their spouses. That's an initiative 
that the President's wife, Michelle Obama, is also taking on, 
which I take very seriously.
    So, I want to try to integrate as many things as I can with 
the current resources and the other agencies that can help us 
do that. Because it's going to--it's going to require what I 
would say are more wrap-around services, to really help address 
the issues of these returning soldiers.
    So I agree with you, this has to be a priority, and we'd 
like to work with you to see how we can really formalize a good 
program, because this is going to be ongoing.

                           PREPARED STATEMENT

    Senator Pryor. Thank you. Thank you, Mr. Chairman.
    [The statement follows:]
                Prepared Statement of Senator Mark Pryor
    Thank you Chairman Harkin and Senator Cochran for holding this 
subcommittee hearing concerning the budget request for the United 
States Department of Labor.
    I appreciate Secretary Hilda Solis appearing before this 
subcommittee today.
    The Department of Labor is responsible for protecting wages and 
working conditions for 135 million workers in more than 7.3 million 
workplaces.
    As the country faces its most profound economic downturn since the 
Great Depression, it is critical that we meet our responsibilities to 
unemployed workers and that we take the steps necessary to ensure that 
workers are trained or retrained in the skills that are needed to keep 
our country competitive.
    I look forward to hearing Secretary Solis' testimony and having the 
opportunity to ask questions.

    Senator Harkin. Thank you, Senator Pryor.

                        FAIR LABOR STANDARDS ACT

    Madam Secretary, in March I held a hearing on the 
Department's oversight of what we call the 14-C Program under 
the Fair Labor Standards Act. And this arose out of a terrible 
situation that was uncovered in my State of Iowa.
    The 14-C Program, as you know, is a program that allows 
employers to pay subminimum wages--subminimum wages--to 
individuals with disabilities, especially individuals with 
intellectual disabilities--because they maybe can't produce as 
much. They have a program that allows them to pay subminimum 
wages; it's been in the law for a long time.
    Now, here's what happened, though. In this situation which 
came to light, and it's been going on for many years, like 30-
some years--individuals with intellectual disabilities, what we 
might call mentally retarded in the past, were hired by a 
company in Texas--Henry's Turkey Service. They were put on a 
bus and shipped to Iowa, to work at a Turkey plant in southeast 
Iowa. These were all men. They were then put up in a kind of a 
rooming house, which was an old abandoned schoolhouse, and they 
got up at 3 or 4 in the morning, got on a bus, went to work 
there at this plant. Many of them worked right alongside of the 
other workers, doing the same work that the workers were doing.
    They were housed in this schoolhouse--I think the monthly 
rental on that whole school is, like, $600 a month, for the 
whole building. And yet each of these--how many were there? 
Twenty-some individuals, were charged $1,200 a month for their 
rent. And that was taken out of their pay--that was taken out 
of their pay.
    And so this situation was uncovered, but that--the thing 
that was startling was not--was how bad this was, but the fact 
that it had gone on for years, and no one knew about it.
    And then the more I dug into it, the more I found out. This 
company--their 14-C application had expired, and you have to 
get it renewed every couple of years. And it expired, and yet 
nothing was done--it just expired.
    And so the hearing I held was on this issue of, how could 
this happen? And how many people is the country are we talking 
about? Is this just some isolated little incident that we don't 
need to change anything for?
    Well, a GAO report I found out about indicated in 2001, 
(GAO-01-886) there were approximately 424,000 workers in 
America, paid subminimum wages. These are people with 
intellectual disabilities, mental retardation, most of them.
    Well, it's also come to my attention that the Department of 
Labor--this Department of Labor--really has a minimal number of 
people working on this, and it's all done by paper. They send 
the paper out, the employer fills it out, sends it back in and 
says, ``Yes, I'm under the 14-C Program,'' and that's it, then 
they file it, and that's it.
    Federal inspectors had been at this plant once, some years 
ago, and nothing was done. It wasn't until a local worker, a 
State worker had uncovered this that it all came to light what 
was going on. People--some of these men had been working there 
for, like, 20 years, and had nothing to show for it--they had 
no retirement, they had no benefits, they had nothing. Some of 
them work in there every day, 8 hours a day, 40 hours a week, 
sometimes overtime, and some of them had, like $6 a month 
leftover. I mean, this was a scandal. And it just--you think, 
how could that happen in America?
    Well, I tell you this story because it's something I want 
to work with you on, and we've got to get a better handle on 
this 14-C Program. And I'm developing some legislation. But I 
think there's a lot that can be done administratively on this, 
to tighten down and make sure that people who are applying for 
14-C exemptions actually are doing what they say they're doing. 
That the people qualify, and that they really are doing work at 
a reduced rate, you know what I'm saying, they're not as 
productive.
    I'm not against the 14-C Program, don't get me wrong. It 
can be a good thing for a lot of people with severe 
disabilities to actually have some employment. But, obviously, 
if they can't produce much, then you pay them a little bit 
less--I understand that.
    But, I wanted to make sure that they're actually--are they 
actually, really, so disabled that they can not make at least 
the minimum wage, or more, if you get my point.
    Secretary Solis. Yes.
    Senator Harkin. Somebody has to make those determinations. 
It's all done by paper, now, we have no inspectors, going out 
there and checking up on this and finding out what's going on, 
so how widespread this is? I don't know. I just know from my 
2001 report that there's approximately 424,000 workers at GAO.
    So we need monitoring, and bring this up to ask you, and 
your Department to get people paying attention to this. I would 
like to come back with you on this to find out what it is, 
administratively, that you can do, and what it is that we need 
to do legislatively to fix this.
    So I hope we can have cooperation on this, and also your 
attention to this one factor. These are the most vulnerable 
people in our society, and the fact that they can be treated 
like this is just unconscionable.
    So, I hope we can work with you on that.
    Secretary Solis. Senator, thank you for your comments, and 
I too was horrified when I read the article, and articles 
surrounding this issue.
    And I know that in the last 8 years, we have not had 
sufficient investigators in the Wage and Hour Division, and 
hopefully our budget request will help us begin to address 
that, so we could put real bodies, real investigators out in 
the field, to look at these kinds of industries that take 
advantage of these most vulnerable populations.
    And I want to thank you for your leadership in drawing to 
our attention the fact that we need to do more collaboration on 
the 14-C applications, along with trying to collaborate better 
with the Social Security Administration also, so that we can 
identify who these individuals are, and also who is drawing 
down the 14-C applications so that we do get rid of the bad 
actors, and that we send a strong message that this is not 
going to be tolerated.
    So, I want to work with you on it, I'll be excited to hear 
what ideas you have surrounding the program.
    Senator Harkin. Okay, thank you very much, Madam Secretary.
    Senator Pryor, do you have any more questions?

                          SENATE CONFIRMATIONS

    Well, Madam Secretary, we have no more questions here, if 
we have other questions, we'll submit them in writing, but 
again, do you have anything that you want to draw our attention 
to, here, regarding your budget, that you think that we didn't 
cover that you would like to bring up?
    Secretary Solis. Well, there is one concern that I have, 
and that is just that I know that we're a new administration, 
and it's hard right now to process the number of people that 
we'd like to bring in to help with our leadership in our 
Department.
    Yesterday, I was asked this question by Chairman Obey--he 
asked me, facetiously--how many people we have actually gotten 
through the process and confirmed by the Senate, and I could 
only tell him two, and one of them is sitting behind me here.
    So, you know that we have a tremendous effort ahead of us, 
and we want to be able to show that we're working effectively, 
transparently, but also accountable to you. I would just ask, 
and urge, the members of the Senate, if you can pass that 
along, that would be appreciated.
    Senator Harkin. Well, do you have some pending up here, 
right now?
    Secretary Solis. We do.
    Senator Harkin. How many?
    Secretary Solis. Two, we have two.
    Senator Harkin. Two that are pending, right now?
    Secretary Solis. Yes.
    Senator Harkin. Are they before our subcommittee? Not, I 
mean, not this subcommittee--the other committee I'm on.
    Secretary Solis. Before the HELP Committee.
    Senator Harkin. The other committee I'm on, the HELP 
Committee, right?
    Secretary Solis. Some of you have, yes, yes.
    Senator Harkin. They're pending before that?
    Secretary Solis. Yes, before the HELP Committee. Yes.
    Senator Harkin. Two pending before the HELP Committee.
    Secretary Solis. Any effort and energy would be much 
appreciated.
    Senator Harkin. Okay, we'll look at that.
    Secretary Solis. Thank you.
    Senator Harkin. We'll see if we can get that done as soon 
as possible.
    Secretary Solis. Thank you for your indulgence.
    [Clerk's Note.--Senator Inouye has submitted information 
about economic dislocation now taking place in American Samoa 
which will be inserted into the record.]

    Mr. Chairman and Madam Secretary: I would like to draw your 
attention to the economic dislocation now taking place in a remote part 
of the Nation--American Samoa--which is often treated as an after-
thought. As you are aware, the Congress, under Public Law 110-28 (May 
25, 2007), increased the Federal minimum wage. At that time, 
investigation into unlawful lobbying activities learned of employment 
abuses by American garment manufacturing interests in the western 
Pacific. This led the Congress to include in Public Law 110-28 an 
immediate $0.50 cent increase of the hourly minimum wage in the 
Commonwealth of the Northern Marianas as of July 24, 2007 with an 
additional $0.50 cent increase every May 25 thereafter until the hourly 
rate matches the Federal rate of $7.25.
    In the rush to legislate, the Congress applied the same mandate to 
American Samoa without much consideration at all. In so doing, the 
Congress ended the biennial administrative minimum wage increases for 
American Samoa and imposed on this territory the fixed increases set 
for the Marianas. Unlike the Marianas, American Samoa was subject to 
the minimum wage requirement in the Federal Fair Labor Standards Act of 
1938. Recognizing the territory's developing economy, Congress had 
directed that the minimum wage in American Samoa should reach parity 
with the States ``as rapidly as is economically feasible without 
curtailing employment.'' The Fair Labor Standards Act thus applied to 
American Samoa the same statutory process that had gradually raised the 
minimum wage in the Virgin Islands and Puerto Rico to match the regular 
Federal rate. Under this procedure, your Department had adjusted the 
minimum wage rate in American Samoa every 2 years based on economic 
development in different sectors.
    Public Law 110-28, however, scrapped this procedure and mandated 
annual increases without regard to economic sustainability in American 
Samoa. In a subsequent report to Congress your Department noted the 
fragile condition of economic development in the American Samoa. In 
view of the territory's level of development, the Department observed 
that the mandated wage increase for American Samoa is equivalent to 
imposing a $16.50 Federal minimum wage requirements on the States. Your 
Department diplomatically added: ``General experience in the U.S. and 
elsewhere has shown that potential adverse employment effects of 
minimum wage increases can be . . . offset to some degree by an 
expanding economy that is generating net employment growth. In a 
declining economy, any adverse effects on employment will not be 
offset.''
    Although the Congress has ignored this report, the Department's 
assessment has proven all too accurate. The adverse employment effects 
are seen in the fish canning industry which directly and indirectly 
provides one-half to two-thirds of employment in American Samoa. This 
is particularly the case, since low-cost foreign competitors provide 
the same product at far lower prices. One canner in American Samoa has 
instituted severe employment cutbacks and the other canner will soon 
move its operations to a foreign country with lower costs.
    I would like to submit into the record, a letter I recently 
received from Congressman Eni Faleomavaega, requesting emergency 
assistance for American Samoa. Under the American Recovery and 
Reinvestment Act of 2009, Congress appropriated funds and authorized 
your Department to deal with economic dislocations just as in this 
case. I, therefore, urge you and your Department to consider the 
economic adjustment American Samoa faces and to extend the necessary 
assistance authorized under the Recovery Act.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Harkin. The subcommittee will be submitting any 
additional questions for your response.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted by Senator Tom Harkin
                     wia dislocated worker formula
    Question. When comparing regular 2009 program year allocations with 
2008 program year allocations, several States, including Iowa, will 
experience reductions under the Workforce Investment Act (WIA) 
Dislocated Worker formula. Iowa's unemployment rate is not as high as 
other States and began seeing job loss and increasing unemployment 
claims at the end of calendar year 2008 which has continued into 2009. 
However, under the 2009 program year allocations Iowa will receive a 
cut of 15 percent comparing the regular 2008 allocation with the 
regular 2009 allocation.
    What is the Department's view of the current dislocated worker 
formula and whether it effectively targets resources to the communities 
and States most impacted by recent economic dislocations? What changes 
could be taken during WIA reauthorization to ensure that States have 
more certainty about the level of funding they will have from year-to-
year, while more effectively targeting formula funds to States and 
local communities that are experiencing recent significant 
dislocations?
    Answer. The WIA funding formula for dislocated workers was adopted 
from the one established under Job Training Partnership Act in 1982 and 
has not been revised since WIA's enactment in 1998. Although the 
formula focuses on targeting the funds to those States hardest hit by 
worker dislocations, wide fluctuations in funding amounts--such as 
those experienced with the program year 2009 allocations--are not good 
for the workforce system or the workers served by it. Features such as 
``hold harmless'' or ``stop gain'' amounts could be built into the 
formula to moderate large fluctuations in funding on a year-to-year 
basis. A recent Government Accountability Office review provided 
Congress with several recommendations regarding WIA funding formulas. 
We look forward to working with the Congress through WIA 
reauthorization to examine these recommendations and other options for 
updating and improving the dislocated worker funding formula.
                    contracting authority under wia
    Question. The Recovery Act provided local workforce boards with the 
authority to contract with institutions of higher education or other 
eligible training providers if it would facilitate the training of 
multiple individuals in high-demand occupations and not limit customer 
choice.
    While it is still early in implementation of the Recovery Act, what 
has been the Department of Labor's (DOL) observation on the use of this 
authority? Does it provide an effective and efficient mechanism for 
providing support for training at the local level?
    Answer. This provision was very well received by the workforce 
system. However, it is too early to determine the effectiveness of this 
provision since we do not yet have information on its use. We will be 
reviewing the effectiveness of this authority and its use as part of 
our overall evaluation of the implementation of workforce provisions 
under the Recovery Act.
                   workforce data quality initiative
    Question. The budget includes a request for $15 million for a 
workforce data quality initiative. Since 2003, the subcommittee has 
supported funding at the Department of Education for Statewide 
Longitudinal Data systems. The 2009 appropriations act and Recovery Act 
included the authority for the Department of Education to make awards 
under this program for systems that included postsecondary and 
workforce information and provided more than $300 million for this 
purpose. How is the Department of Labor working with the Department of 
Education to ensure that the grant application for awards under the 
Recovery Act incorporate a request for proposals that would integrate 
useful workforce information into these systems? Haven't States 
received grants for this purpose under the recent Department of 
Education competition? The budget request also mentions that the $15 
million request would be available to undertake ``activities to improve 
the quality and accessibility of performance data reported by training 
providers''. What specific activities would be supported under such a 
grant solicitation and how much of the $15 million request would DOL 
reserve for such activities?
    Answer. The Department of Labor has an active partnership with the 
Department of Education (ED) to assure that our respective initiatives 
are not duplicative and represent value-added investments in building 
longitudinal data systems that link education and workforce databases 
at the State level.
    The Department of Labor (DOL) has already provided ED with 
information about the various workforce data systems that currently 
exist, as well as information about initiatives such as the Employment 
and Training Administration-supported Administrative Data Research and 
Evaluation project that uses longitudinal administrative data for 
employment and training research and analysis. DOL has also aided ED in 
shaping its ARRA-funded solicitation as it pertains to effectively 
linking workforce and education databases. DOL will engage in a similar 
consultation with ED as the solicitation for the Workforce Data Quality 
(WDQ) initiative is developed.
    I am requesting $15 million for the WDQ in the fiscal year 2010 
budget. The WDQ would focus on improving the quality of State workforce 
information and databases, so that workforce data are ready to be 
linked to educational data with funding provided by ED. Thus, the WDQ 
initiative would enhance, rather than duplicate, the Department of 
Education's investments. Specific activities that would be supported 
under the grant solicitation include the following:
  --The WDQ would provide resources to help States promote improvements 
        in the quality and accessibility of performance data reported 
        by training providers. Consistent and accurate data from 
        providers about the services they offer and how these services 
        impact their customers when they enter the labor market are 
        crucial to informing researchers and consumers. Activities 
        funded by the grants might include technical assistance to 
        training providers or the development of a user-friendly 
        interface to help training providers more easily report 
        information on employment outcomes.
  --Grant funds may be used to enhance State workforce longitudinal 
        administrative data systems by improving interoperability with 
        education data or expanding the types of workforce data they 
        contain. For example, Unemployment Insurance (UI) wage records, 
        which are the primary source of workforce data, do not contain 
        information on many Government or military employees, so some 
        States have linked UI wage records to additional workforce 
        data.
    Other focus areas of the WDQ would be developed in consultation 
with the ED to avoid counterproductive duplication of content and to 
assure that the WDQ investment adds to the robustness of State 
longitudinal data systems.
                   dol review of ex-offender programs
    Question. The congressional budget justification indicates that the 
Department is conducting a thorough review of current grants for ex-
offender programs and will develop, in cooperation with the Department 
of Justice, a detailed plan for fiscal year 2010 funding.
    What were the findings from the DOL review of ex-offender programs? 
Specifically, what is the Department's proposal for allocating the 
requested funding for ex-offender activities? Please indicate which 
activities are new and what requested resources pay for continuation 
costs of current activities.
    Answer. The Department has not yet completed its review of current 
ex-offender projects, but plans to complete its review in the next few 
months. Following its completion, we will coordinate with the 
Department of Justice to develop a detailed plan for fiscal year 2010 
funding. As indicated in our congressional justification, we plan to 
continue funding both adult offender projects and youthful offender 
projects in fiscal year 2010. The Department is also considering a new 
grant competition to fund programs for juvenile offenders based on the 
civic justice corps model, which would offer youth paid opportunities 
for community service work along with intensive case management, life 
skills development, and job training.
                       transitional jobs programs
    Question. The budget proposes $50 million to demonstrate and 
evaluate transitional job program models and requests the authority to 
transfer some or all of these funds to the Departments of Health and 
Human Services and Justice. Transitional jobs programs have been 
supported in part by Temporary Assistance to Needy Families, Food 
Stamp, Employment and Training, Child Support Enforcement, WIA, youth 
programs, prisoner re-entry funds, and a variety of other city and 
State funds.
    Given that existing funding streams have supported and do support 
transitional jobs programs, what is gained by creating a new program to 
support transitional jobs? If there are limitations to the support for 
transitional jobs under existing programs, what changes in statute or 
regulation would need to be made to allow current funding streams/
systems to more effectively support transitional jobs? What specific 
activities and corresponding dollar amounts would be involved in the 
requested transfer authority, if Congress were to appropriate funds as 
proposed in the budget request?
    Answer. The Department of Labor recognizes that other agencies have 
supported transitional jobs programs and that evaluations have shown 
this to be a promising intervention. In the program year 2010 budget, 
the Department is proposing to model how services and resources 
available through the workforce system can be utilized to increase 
workforce participation, primarily for noncustodial parents including 
young parents. The Department plans to work collaboratively with other 
agencies, particularly the Department of Health and Human Services, to 
implement a rigorous demonstration and evaluation to determine which 
program model or models have the greatest impact on participants' 
employment outcomes. A designated funding stream for transitional jobs 
is important so that the demonstration can be structured to provide 
evidence of program impacts that will be helpful to policymakers.
    The Department proposes using $50 million for this initiative from 
the Pilots, Demonstrations, and Research line item, as authorized by 
the WIA. The Department will use the majority of these funds for 
competitive grants to demonstrate new models and a smaller but 
significant portion to fund the evaluation.
      monitoring one-stop access by individuals with disabilities
    Question. Under work incentive grants which are proposed for 
elimination, the congressional budget justification states that ``ETA 
is monitoring One-Stop Career Centers to assess access by and services 
provided to individuals with disabilities''.
    How many monitoring visits or contacts have been conducted to date, 
and how many are planned for program years 2009 and 2010? What has this 
monitoring found on the issues of access and services for individuals 
with disabilities, including specifically physical and programmatic 
barriers?
    Answer. Part of the Employment and Training Administration's 
(ETA's) routine monitoring of grants, which includes Workforce 
Investment Act (WIA) and Employment Service funds, includes determining 
if grantees' locations and facilities are physically accessible and 
usable by disabled individuals. This monitoring is conducted throughout 
the country by staff in ETA's six regional offices. Monitoring is done 
using the ETA Core Monitoring Guide and ETA Grant Management Desk 
Reference as reference documents, and the monitoring is done both in 
the office (desk audits, review of submitted reports, and provision of 
technical assistance), and on-site, periodically. Any findings related 
to accessibility are resolved through ETA's usual process of follow-ups 
and technical assistance. Historically, this approach has been 
successful but in a case where access continues to be problematic ETA 
would consult with the Department's Civil Rights Center to identify a 
resolution.
    On-site monitoring visits are scheduled each fiscal year in a 
regional work plan, and the frequency of State visits is based, in 
part, on the availability of resources. Each State receives an in-
person comprehensive review of all ETA programs every 3 years. 
Technical assistance is provided in response to requests, or in 
response to any identified deficiency in complying with Federal law or 
other program reporting or outcomes.
    In program year 2009, ETA monitored 25 States and plans to monitor 
23 States in program year 2010. A sample of local areas (at least two 
to three per State) are also reviewed in this process and visits to 
One-Stop Centers are made. ETA reviews 50-75 One-Stop Centers per year 
as part of this comprehensive review process. Accessibility is 
specifically evaluated on-site and any compliance problems would be 
documented in the review report prepared and submitted to the State. 
The regional office keeps all issues open until they are successfully 
resolved in accordance with Federal law and requirements.
    Additionally, Regional Offices also monitor discretionary grants 
such as the Disability Program Navigator (DPN). Ten DPN grants were 
monitored in program year 2009 and 16 DPN grants are slated to be 
reviewed in program year 2010. Any issues detected with accessibility 
through these reviews at the One-Stop Centers would also be identified.
    In program year 2010, ETA expects increased monitoring activity 
related to the Recovery Act. In preparation and as part of its 
technical assistance efforts related to implementation of the Recovery 
Act, ETA performed readiness assessments and consultations. Part of 
theses activities involved asking the States and territories if their 
One-Stops and all other service options were accessible to persons with 
disabilities. In response to this question, 51 of the 53 States/
territories that responded stated that their One-Stops are accessible.
    Beyond the Federal monitoring activities discussed above, WIA 
nondiscrimination regulations require State and local area recipients 
of WIA funds to designate Equal Opportunity (EO) Officers. These WIA 
recipients and EO officers have an independent obligation to process 
complaints, monitor compliance with nondiscrimination laws, and ensure 
violations are remedied. The Department of Labor's Civil Rights Center 
provides training to these State and local EOs during annual 
development conferences held in the Washington, DC area and various 
States.
    Question. What actions has ETA taken or does it plan to take to 
address the documented fragmentation of services that has been found in 
a Government Accountability Office report?
    Answer. I believe the report you are referencing is the Government 
Accountability Office (GAO) report on Federal Disability Programs (GAO 
08-635) released in May 2008. This report found that individuals with 
disabilities often experience a fragmented Federal disability system. 
Although the report contained no specific recommendations for the 
Department of Labor, I agree that increased Federal coordination to 
better serve individuals with disabilities is extremely important and 
beneficial.
    The Disability Navigator Program has successfully served as the 
Department's model for addressing such fragmentation of services by 
helping One-Stop staff identify the full spectrum of available Federal, 
State, and local resources and services for persons with disabilities 
and the employers who hire them. Seven years of dedicated funding for 
this pilot program have successfully demonstrated this approach to 
support more integrated service provision for persons with 
disabilities, and ETA is now taking steps to ensure that States and 
localities continue this approach as part of their regular One-Stop 
Career Center activities.
    For fiscal year 2010, I have requested an increase of $10 million 
over fiscal year 2009 for the Office of Disability Employment Policy 
(ODEP). This increase will support a new initiative that builds upon 
the lessons learned by the Disability Navigators, and focuses on 
working with employers, the One-Stop system, labor-management 
organizations, and other stakeholders to vigorously promote the hiring, 
job placement and retention of individuals with disabilities, 
particularly youth, in integrated employment, apprenticeship, and pre-
apprenticeship programs, and community service activities that help 
build skills for employment.
    In their report, GAO also recommended that all Federal stakeholders 
and Congress work together to construct a process for developing a 
cost-effective Federal strategy that would integrate services and 
support to individuals with disabilities. I look forward to future 
opportunities to work with Congress and other Federal agencies to 
consider steps to better coordinate and align services to individuals 
with disabilities.
    Question. The congressional budget justification also states that 
``ETA expects to continue to see a significant increase in workforce 
service levels to job seekers with disabilities in the One-Stop Career 
Center system, even with termination of program funding.'' 
Specifically, what actions does ETA intend to take to make this 
statement a reality?
    Answer. While the Department has recommended phasing out direct 
funding for this demonstration, it is actively working with States to 
utilize other Federal and State resources available to support the 
Navigator model, including Wagner-Peyser Act (Employment Service) 
funding, funding available for One Stop Career Centers to become 
Employment Networks under the Ticket to Work Program, and other 
sources. This administration remains strongly commitment to ensuring 
that individuals with disabilities receive the training and other 
support services that they need to obtain employment and succeed in the 
workplace. The Department recognizes that in an economic downturn and a 
tight labor market, individuals with more barriers to employment could 
be left behind. The Department is working to ensure all disadvantaged 
populations continue to have access to the resources of the public 
workforce system and benefit from the new infusion of resources 
provided by the American Recovery and Reinvestment Act. Some specific 
strategies include requiring States to specify how they will ensure 
disadvantaged populations continue to be a point of focus in 
modifications to their WIA and Wagner-Peyser Act State Plan that 
describe their Recovery Act strategies. In addition, we will provide 
ongoing technical assistance to the workforce system through webinars 
and other means and, in fact, have already produced a webinar with a 
focus on how to ensure individuals with disabilities are served with 
these new resources.
                 re-employment eligibility assessments
    Question. The 2010 budget request includes $50 million to continue 
support for Reemployment and Eligibility Assessments, an increase of 
$10 million over the fiscal year 2009 level. What is the current 
condition of State UI technology systems and how will these funds (and 
requested national activities funds) help improve improper payment 
prevention, detection and collection efforts?
    Answer. States' UI technology systems vary widely. However, we know 
that many State systems are 30 or more years old, use outdated 
technology, and have been difficult to modify to accommodate the 
Emergency Unemployment Compensation program, the Federal Additional 
Compensation program, and payment of Extended Benefits in States where 
that program has not triggered on since the early 1980s. These older 
systems have also had difficulty in quickly expanding capacity to the 
extent needed to process current workloads.
    The Department will use a portion of the requested funds to provide 
States the opportunity to implement technology-based systems that can 
help expand their capabilities to prevent, detect, and recover improper 
payments. Data matching systems, in particular, are a cost-effective 
method of preventing and detecting improper payments. These funds will 
allow States to enhance their current infrastructure and develop and 
implement new data matching systems to expand current capabilities.
    A few examples of such integrity-related systems include: (1) data 
matching systems, e.g., the National Directory of New Hires, among both 
Federal and State agencies, which help States to detect unreported 
earnings while an individual is filing for UI (the largest cause of 
improper UI payments) and help to detect other issues that may impact 
UI eligibility; and (2) internal data matching such as matching/
analyzing transaction data for patterns that may indicate improper 
action by agency personnel. These new systems and system enhancements 
can make the States' integrity-related activities more accurate, cost 
effective, and expeditious.
    National Activities funds help States prevent, detect, and collect 
improper payments, primarily by supporting various activities, such as 
(1) the telecommunications network that links States with each other 
for data matching purposes as well interstate and combined wage claim 
processing; and (2) the use of new technology, such as the development 
and implementation of a State information data exchange system to 
support the electronic reporting of information from employers about 
why individuals no longer work for them, which is expected to improve 
the quality and timeliness of initial eligibility determinations based 
on the reason for an individual's job separation (incorrect initial 
eligibility determinations are the second largest cause of improper 
payments in the program).
             administration of work opportunity tax credit
    Question. The 2010 budget request includes $18.52 million for 
administration of the work opportunity tax credit. The congressional 
budget justification notes that backlogs exist in a number of States.
    Is the requested amount sufficient to keep pace with the recent 
expansions of the program that have been enacted by Congress and 
eliminate current backlogs?
    Answer. The funding level has increased slightly, as shown in the 
table below. The Department will be monitoring the impact of the 
addition of two new target populations on workload.

                        [In thousands of dollars]
------------------------------------------------------------------------
                       Fiscal year                            Funding
------------------------------------------------------------------------
2005....................................................          17,856
2006....................................................          17,677
2007....................................................          17,677
2008....................................................          17,368
2009....................................................          18,520
------------------------------------------------------------------------

    While the WOTC did not receive dedicated Recovery Act funds to 
assist with the new workload, States can choose to use Wagner-Peyser 
Recovery Act funds for this purpose, in addition to helping individuals 
find jobs and developing and delivering quality labor market and career 
guidance information.
    In the meantime, we are working with States with the highest 
backlogs to determine their key challenges and tailor technical 
assistance to those States to address their backlogs, including peer-
to-peer technical assistance on automation strategies for States that 
have not automated their processes and help in addressing any 
challenges they face in getting necessary verification information from 
partner programs who have the necessary data.
    Question. What administrative actions and technical assistance will 
be provided to increase the timeliness of the certification process?
    Answer. As a result of backlogs in many States that resulted from a 
variety of administrative challenges, including lengthy hiatuses in the 
program, and as a result of the two newly added targeted populations, 
the Employment and Training Administration is currently undertaking a 
comprehensive program review, including assessments of the current 
costs to run the program; whether the funding formula utilized is the 
appropriate one; and whether the reporting and data collection 
processes ensure that we have the best information for monitoring the 
program.
    To support State implementation of the new Recovery Act provisions, 
in the immediate future we will conduct webinars on the new target 
groups authorized by the Recovery Act and the revised reporting forms 
for the program.
    Question. Could ETA establish systems that would allow employers to 
file the pre-screening IRS Form 8850 electronically?
    Answer. A number of States have improved electronic systems that 
allow for more automated, streamlined processing. Many of these States 
have indicated that processing times have been significantly reduced by 
eliminating data entry and other time-intensive manual processes. 
However, other States have indicated that more updated automation 
processes are needed. ETA will review this and determine whether 
Federal assistance in electronic filing is warranted.
                         wage and hour division
    Question. The budget request includes $240.960 million for 
enforcement of wage and hour standards, which is an increase of $30.862 
million and 288 Full Time Equivalents (FTE) over the 2009 level. What 
is the Department's plan (timeline and associated activities) for 
hiring these additional staff? How will the Department identify the 
geographic areas and industries in which to deploy these additional 
staff? How are community resources and community-based organizations 
engaged by the Wage and Hour Division (WHD) to ensure that workers are 
paid wages due them? What actions is WHD taking or planning this year 
and in 2010 to strengthen enforcement of the 14(c) provision of the 
Fair Labor Standards Act? What is the amount of resources dedicated to 
14(c) enforcement in the current year and planned for 2010?
    Answer. The WHD enacted fiscal year 2009 budget represents a 
$17,434,000 increase over the fiscal year 2008 enacted level and 
increases the agency's FTE ceiling from 1,208 in fiscal year 2008 to 
1,283 in fiscal year 2009. In order to reach the 1,283 FTE ceiling for 
fiscal year 2009, WHD is hiring 170 new staff which includes 162 new 
investigators. These new hires should be on-board before the end of 
fiscal year 2009.
    A number of key factors were used to determine how to allocate 
these additional staff among WHD's five regions. Those criteria 
included:
  --The rate of attrition over the last 8 years;
  --The percent of directed investigations in low-wage industries;
  --The percent of total incoming complaints;
  --The percent of low-wage minimum wage violations;
  --The percent of low-wage overtime wage violations; and
  --The strength of State laws and State law enforcement.
    In addition, WHD is now hiring an additional 116 staff, 100 of 
which will be investigators, to ensure that contractors performing work 
on American Recovery and Reinvestment Act (ARRA) projects are in 
compliance with the applicable prevailing wage laws. WHD will use 
trained and experienced investigators for ARRA-related enforcement and 
compliance assistance and will charge their related costs to the ARRA 
funding. This, in turn, will allow WHD to finance the 100 new 
investigator positions. These new investigators are allocated to WHD 
offices by State in proportion to the number of estimated jobs created 
and/or saved by ARRA funding. We expect these new hires to be on-board 
no later than mid-September 2009.
    The President's fiscal year 2010 request includes an increase of 
$30,862,000 and 288 FTE, the large majority of which will be 
investigators. The requested FTE ceiling is 1,571. Given the ongoing 
fiscal year 2009 and ARRA hiring, WHD will be close to the fiscal year 
2010 ceiling early in the fiscal year. If the fiscal year 2010 
requested FTE ceiling is not enacted, WHD will slow attrition hiring to 
ensure that it stays within fiscal year 2010 FTE ceiling. The fiscal 
year 2010 requested increase in FTEs will bring WHD back to pre-fiscal 
year 2001 investigator staffing levels. WHD will use the same criteria 
in fiscal year 2010 as it uses in fiscal year 2009 to allocate 
additional staff in the five WHD regions.
    The President's request also includes resources to help WHD 
continue the revival of customer service by supporting improved 
complaint intake and more in-depth complaint investigation processes 
and resources to strengthen enforcement on behalf of vulnerable 
workers. If enacted, the budget will allow WHD to increase its 
coordination with stakeholders such as community organizations and 
employ other strategies that will improve its customer service.
    WHD has spent investigative, administrative, training, and 
educational resources over the last several years in an effort to 
increase employer compliance with the Fair Labor Standards Act (FLSA) 
section 14(c) program. Section 14(c) certified employers represent less 
than 0.07 percent of the approximately 7 million FLSA covered 
workplaces in the United States.; however, they represent 0.56 percent 
of WHD investigations of employers conducted each year and 2.17 percent 
of all directed or noncomplaint based investigations conducted each 
year. Over the last several years, WHD's regional and district offices 
have developed enforcement and education initiatives to promote 
compliance with this program within their respective geographic areas. 
On average over the last 5 years, WHD has conducted more than 180 
section 14(c) investigations. Those efforts will continue in fiscal 
year 2010 as WHD plans to repeat the investigation-based compliance 
survey of section 14(c)-certified employers to determine if compliance 
among section 14(c)-certified employers has improved over the 2002 
levels.
               national emphasis program on recordkeeping
    Question. The 2009 appropriations act included additional funds for 
OSHA to explore and address an apparent lack of completeness of the 
OSHA Log of Work-related Injuries and Illnesses. The congressional 
budget justification indicates that a National Enforcement Program 
(NEP) on Recordkeeping is currently under development. When will this 
NEP be issued and implemented, and how will these additional funds be 
utilized? How much funding is included in the 2010 budget request to 
continue this work or initiate additional activities? What activities 
will this funding support?
    Answer. The NEP is currently under National Council of Field Labor 
Locals (NCFLL) review, generally the final step in the review of NEPs 
before implementation, and is expected to be in place by August 1, 
2009. The NEP is designed to identify underrecorded and misrecorded 
injuries and illnesses in selected establishments, and to enforce the 
agency's recordkeeping requirements. The Bureau of Labor Statistics, 
which is producing its own report on the potential underreporting of 
injuries and illnesses, was consulted during the drafting of the NEP.
    In fiscal year 2009, OSHA will dedicate the $1,000,000 provided in 
the agency's appropriation to improve recordkeeping enforcement. 
Beginning in fiscal year 2009, OSHA plans to conduct at least 350 
programmed inspections over the course of the NEP--a significant 
increase over historical inspection totals--to investigate the accuracy 
of the information employers are required to record on the OSHA 300 
log. The agency will issue citations and penalties, as appropriate, for 
recordkeeping violations found as a result of the inspections conducted 
under this NEP in fiscal year 2009 and future years. The NEP will 
target establishments that operate in historically high injury and 
illness rate industries, as identified by the Bureau of Labor 
Statistics, but have reported low rates of injuries and illnesses. The 
program will also include establishments in the construction and 
poultry processing industries, due to the inherently high-hazard nature 
of the work in those industries, and due to questions that have been 
raised regarding recordkeeping practices in those industries.
    Assessments of the accuracy of establishment-specific recordkeeping 
data will include interviews with employers, employees, company 
recordkeepers, first-aid providers, and healthcare providers; the 
assessment will also include a review of relevant records and 
documentation, such as medical records, workers' compensation records 
and first-aid records.
    As part of this initiative, OSHA will also provide more intensive 
training to its Compliance Safety and Health Officers (CSHOs) on 
identifying potential problems in recordkeeping data and systems 
through a mandatory course on recordkeeping. The agency's Training 
Institute staff are beginning to revise the core curriculum for CSHOs 
to include a week-long rigorous training course. The agency will direct 
necessary resources for inspections and to fully train its compliance 
staff in fiscal year 2010.
    OSHA will also evaluate the NEP to determine what steps or measures 
and additional resources, if any, are needed to improve recordkeeping.
                             hiring at osha
    Question. The budget request includes $19.569 million for safety 
and health standards, which is an increase of $2.365 million and 20 FTE 
over the 2009 level. What is the Department's plan (timeline and 
associated activities) for hiring these additional staff?
    Answer. The agency will build on its aggressive hiring efforts in 
fiscal year 2009 to jumpstart the hiring of positions in fiscal year 
2010, and is ready to move on the first day that fiscal year 2010 
appropriated funds are available to begin filling all additional 
standards positions. The agency has historically realized significant 
interest from highly qualified applicants for employment opportunities 
for these positions, which has also been evident in the current fiscal 
year. In terms of recruitment and hiring, the agency is prepared to 
fill vacant positions with the aid of announcements that are published 
in various trade journals and other professional publications, as 
appropriate, and is working with the Department's Civil Rights Center 
to identify other venues where potential applicants may be present. 
Announcements are also strategically shared with the various colleges, 
universities, and professional associations whose students and members 
have the desired skills and abilities for the specific positions. OSHA 
will also make use of various human resource authorities and 
strategies, such as recruitment bonuses and student loan repayment, as 
appropriate, to meet hiring needs.
    Question. The budget request includes $227.149 million for Federal 
enforcement, which is an increase of $29.203 million and 160 FTE over 
the 2009 level. What is the Department's plan (timeline and associated 
activities) for hiring these additional staff?
    Answer. OSHA plans to build on fiscal year 2009 and Recovery Act 
hiring to jump-start the hiring of fiscal year 2010 enforcement 
personnel. The agency is ready to move on the first day that fiscal 
year 2010 appropriated funds are available to begin filling all 
additional enforcement positions. The majority of these FTE are 
compliance safety and health officer positions distributed across 
OSHA's 10 regional offices through assessing need by the injury and 
illness rates of industry sectors and number of covered establishments 
in those sectors. The agency will make full use of various human 
resource tools, including Federal Career Intern appointments, 
recruitment bonuses and student loan repayment, as appropriate, and 
work with professional organizations, colleges and universities to 
reach interested and qualified candidates. In addition, the agency 
plans to seek qualified candidates for enforcement positions that will 
address the increasing need for bilingual language skills by 
participating in job fairs and utilizing OSHA information booths to 
promote job opportunities in the agency.
                  severe violators enforcement program
    Question. In March of this year, the Office of Inspector General 
(IG) issued an audit that raised several issues with the Enhanced 
Enforcement Program (EEP). Is the Severe Violators Inspection Program a 
replacement for the EEP? If so, how will this new program incorporate 
the best of the EEP as well as the IG findings into account in 
designing this new program? How will this request enable OSHA to move 
forward on ergonomics-related enforcement activities?
    Answer. OSHA's EEP will be replaced with a new program that is now 
tentatively called the Severe Violators Enforcement Program (SVEP). The 
agency has created a task force composed of regional administrators, 
two deputy regional administrators, Department of Labor attorneys, and 
OSHA's Directorate of Enforcement Programs staff, among others. The 
task force met in May 2009 to begin designing a new program to address 
certain employers and known, often-found hazards. The task force will 
continue to work on creating the SVEP and determining how to implement 
the program. OSHA expects to issue a field directive for the new 
program by the end of this summer.
    The SVEP will not be especially linked to ergonomics-related 
enforcement activities, except in instances in which employers with 
ergonomic hazards at their worksites are identified through the Task 
Force's criteria.
             survey of occupational injuries and illnesses
    Question. The 2009 appropriations act included additional funds for 
Bureau of Labor Statistics (BLS) to explore and address a potential 
undercount of injury and illness data.
    How much funding is included in the 2010 budget request for BLS to 
continue this work or initiate additional activities? What activities 
will this funding support?
    Answer. The 2010 request includes $1.3 million for the continuation 
of activities regarding a potential Survey of Occupational Injuries and 
Illnesses (SOII) undercount in three areas: matching research, employer 
interviews, and a multiple data source pilot. Results for all three of 
these activities, begun in 2009, will be ready by 2012 with interim 
results available on some topics earlier.
  --Matching Research.--This work includes matching SOII data with 
        workers' compensation data to understand what types of workers' 
        compensation cases do not appear in BLS data. Most of the 
        matching will take place in 2010 and early 2011, with BLS and 
        the States conducting further research into the types of 
        injuries and illnesses that are in the workers' compensation 
        records, but not in the SOII, beginning in 2010.
  --Employer Interviews.--Sampled employers will be interviewed about 
        factors that affect recording cases on OSHA logs and the filing 
        of workers' compensation claims. The interviews will focus on 
        certain areas where recordkeeping might be difficult or 
        unclear. Establishments will be selected for interview (partly 
        based on the results of the matching research described above) 
        in 2010 and 2011.
  --Multiple Data-source Pilot.--BLS plans to work with a small number 
        of State partners to pilot the use of multiple data sources to 
        enumerate two types of injuries: workplace amputations and 
        carpal tunnel syndrome cases that, unlike amputations, are less 
        clearly linked to the workplace. The data gathering and 
        analysis will begin in 2010 and extend through 2011.
    For additional information on these topics, please see the recently 
submitted letter report.
                     program direction and support
    Question. The budget increase includes $34.125 million for program 
direction and support (PDS), an increase of $11.294 million over the 
2009 level. This increase includes $2.35 million for the Office of the 
Recovery for Auto Communities and Workers. How much is being spent for 
the Office in 2009 and from what funding source? Please identify the 
PDS offices that will be supported with the balance of increased funds 
in 2010 and explain why such a large increase is needed.
    Answer. The Office of the Recovery for Auto Communities and Workers 
budget for fiscal year 2009 is budgeted at $710,000 and eight staff. 
Because of the severe constraints facing the PDS activity in fiscal 
year 2009, this fiscal year, we are sending an addendum to the American 
Recovery and Reinvestment Act Operating Plan to use funds appropriated 
to Departmental Management (DM) under Public Law 111-8. This program 
will be entirely funded from Recovery Act dollars in fiscal year 2009.
    In fiscal year 2010, $2.35 million is requested to annualize 
operations begun in fiscal year 2009 as well as expand the program to 
meet anticipated needs of this industry and associated community 
impacts. The balance of the increase is associated with restoring the 
PDS activity back to the basic level of funding needed for each office 
that is funded through this activity (i.e., the immediate Office of the 
Secretary, Office of the Deputy Secretary, Office of Congressional and 
Intergovernmental Affairs, Office of Public Affairs, Office of the 
Assistant Secretary for Policy, Office of Public Liaison, Office of 
Faith-Based Programs, and Office of Small Business Programs).
    In fiscal year 2008, Congress enacted a $5.3 million (18.7 percent) 
reduction to the PDS budget activity, compared to the fiscal year 2007 
funding level. To partially restore funding and provide for adequate 
policy direction, the Department reprogrammed $3.506 million from other 
DM budget activities. In fiscal year 2009, Congress enacted a budget 
for PDS equal to the fiscal year 2008 level. The fiscal year 2009 
enacted funding level for DM PDS represents the lowest level of funding 
for this activity since 1999. Adjusted for inflation, the enacted level 
is the lowest level ever for PDS going back to fiscal year 2003. To 
address this problem in fiscal year 2009, the Department is executing a 
reprogramming within the DM account to shift $3 million to the PDS 
activity.
    Historically, PDS funding supports 130-150 FTE. While this level 
has varied from year-to-year since fiscal year 1993, the fiscal year 
2010 President's budget request supports this historical trend by 
including 152 FTE for this budget activity.
                        office of the solicitor
    Question. Please provide a breakdown of legal services workloads by 
office, as well as the 2009 and 2010 request Office of the Solicitor 
(SOL) staffing levels by office. At the 2010 request level for the SOL, 
matters pending under both the litigation and opinion/advice workload 
increase over the 2009 level. Why, and what is the impact of these 
pending levels?
    Answer. Legal Services Workloads by SOL Office.--Submitted with 
this response is the breakdown of the entire legal services workload 
for all clients by each SOL division, region, and subregional office 
for the period from fiscal year 2005 through May 31, 2009, as reflected 
in the hours recorded by attorneys and paralegals. These figures do not 
include senior managers and administrative support staff, who do not 
record work hours in the SOL time distribution system. Also, included 
is a tabulation of the number of Mine Safety and Health Administration 
(MSHA) cases received by SOL's various regions and divisions and hours 
recorded by attorneys and paralegals on MSHA matters during fiscal year 
2008 and the first two quarters of fiscal year 2009.

                                                                                       LITIGATION MATTERS
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                Received                                          Concluded                                          Pending
                                           -----------------------------------------------------------------------------------------------------------------------------------------------------
                  Office                     Fiscal    Fiscal    Fiscal    Fiscal    Fiscal    Fiscal    Fiscal    Fiscal    Fiscal    Fiscal    Fiscal    Fiscal    Fiscal    Fiscal    Fiscal
                                              year      year      year      year      year      year      year      year      year      year      year      year      year      year      year
                                              2005      2006      2007      2008    2009 \1\    2005      2006      2007      2008    2009 \1\    2005      2006      2007      2008    2009 \1\
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
ARLINGTON.................................       971     1,687     1,151     1,764       822     1,131     1,012     1,314     1,060       659     1,134     1,920     1,675     2,387     2,668
ATLANTA...................................     1,013       986       818     1,330       649     1,101     1,080     1,000       913       545       781       766       680     1,124     1,232
BLLLS.....................................     1,018       931     1,316       873       623     1,167     1,000     1,178     1,206       643       867       800     1,061       722       770
BOSTON....................................       604       548       709       677       351       858       564       523       720       400       670       679       891       833       800
CHICAGO...................................     1,066     1,110       900     1,102       545     1,077     1,105       808       902       663       746       569       694       813       772
CLEVELAND.................................       766       642       526       523       352       853       728       507       607       316       400       357       407       317       352
CRLM......................................       193       150       117       142       107       308       254       147       144        95       236       134       130       120       127
DALLAS....................................     1,236     1,034     1,062     1,181       730     1,248     1,068     1,014     1,025       865       725       736       741       786       719
DENVER....................................       493       506       457       887       310       421       500       355       759       342       368       376       510       619       613
ETLS......................................       367       202       272       444       446       301       410       742       345       346       902       622       210       270       359
FEEWC.....................................       277       301       306       222       159       246       313       337       225       137       510       491       344       269       280
FLS.......................................        88        94        56        47        22        41        92        40        47        12       254       185       217       205       189
HONORS....................................        72        43        52        41        54        18  ........       200  ........  ........       236       269       126       162       216
KANSAS CITY...............................       692       621       540       887       419       636       716       549       535       475       420       275       310       712       601
LOS ANGELES...............................       462       411       328       422       149       420       431       375       271       161       233     2,895       197       319       301
MALS......................................        68       200       107        37        37        97       187       150       105        20       200       170       129       108        77
MSH.......................................       370       285       240       319       163       190       214       476       395       205       524       593       363       190       224
NASHVILLE.................................     1,375     1,514     1,412     2,020     1,008     2,855     1,853     1,787     1,583       966     1,943     2,069     2,111     2,533     2,764
NEW YORK..................................     1,090     1,170       894     1,061       743     1,097     1,172     1,096     1,023       790       631       674       572       592       595
OLC.......................................         6  ........  ........  ........  ........        27  ........       100  ........  ........       102       102         1         1         1
OSH.......................................       105       167       191       167        62       115        77       178       171        17        80       181       186       131       172
PBSD......................................       322       413       270       119       123       348       506       104       317       161       480       375       449       221       170
PHILADELPHIA..............................     1,168     1,129     1,074     1,567       821     1,055     1,035     1,145     1,138       815       725       803       731     1,117     1,057
SAN FRANCISCO.............................       643       722       643       755       338       591       754       539       698       334       384       328       488       530       553
SEATTLE...................................       419       355       312       472       210       440       424       289       318       242       221       180       253       357       351
                                           -----------------------------------------------------------------------------------------------------------------------------------------------------
      TOTAL...............................    14,884    15,221    13,753    17,059     9,243    16,641    15,495    14,953    14,507     9,209    13,772    16,549    13,476    15,438    15,963
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Fiscal year 2009 actuals through 5/31/09.Note: Litigation.--The process of resolving legal controversies through a court of law or adjudicative administrative board.
    Matter.--Something for which the receiving office has demonstrated responsibility (i.e., is authorized to take action) for providing legal services and which is referred from any source
  for possible action.


                                                                                     OPINION/ADVICE MATTERS
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                Received                                          Concluded                                          Pending
                                           -----------------------------------------------------------------------------------------------------------------------------------------------------
                  Office                     Fiscal    Fiscal    Fiscal    Fiscal    Fiscal    Fiscal    Fiscal    Fiscal    Fiscal    Fiscal    Fiscal    Fiscal    Fiscal    Fiscal    Fiscal
                                              year      year      year      year      year      year      year      year      year      year      year      year      year      year      year
                                              2005      2006      2007      2008    2009 \1\    2005      2006      2007      2008    2009 \1\    2005      2006      2007      2008    2009 \1\
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
ARLINGTON.................................        19        24        11         7        20        15        24        16         6        13         7         9         6         6        14
ATLANTA...................................       354       337       238       150        66       310       359       271       184        57       135       113        99        54        54
BLLLS.....................................        35         5        19        43        43        11        14        16        29        23       113        53        22        37        51
BOSTON....................................        80        70        49        68        33        84        96        40        85        41        74        49        65        47        43
CHICAGO...................................       195       259       137       163       137       171       259       208       159       125       110        91        29        22        37
CLEVELAND.................................        34        31        38        29         9        37        45        31        35        11        14         3        18        11         5
CRLM......................................       751       486       483       479       330       695       668       502       470       286       301       103       118       157       132
DALLAS....................................       245       125        92       154       100       232       123        92       161       103        73        69        64        32        30
DENVER....................................        34        10       114       118        77        39        14        91       116        72        18        16        53        66        51
ETLS......................................       808       658       542       656       526       545       861       859       688       374       708       548       295       259       346
FEEWC.....................................       468       393       643       590       328       419       393       670       576       214       190       134       181       132       206
FLS.......................................       914       793       654       668       310       633       785       693       570       189     1,036       565       638       732       723
HONORS....................................        96        14        16        14        28        15  ........       578  ........  ........       641       605        44        57        87
KANSAS CITY...............................       194       282       211       188       133       128       301       193       147        83       124        65        95       184       182
LOS ANGELES...............................         4         5         5         5         4         5         4         6         5         2         1       120         3  ........         2
MALS......................................       782       802     1,250     1,378       880       355       837     2,284     1,374       367     2,124     2,068     1,079     1,566      1533
MSH.......................................       278       258       351       388       343       245        60     1,245       483       208     1,146     1,344       438       357       454
NASHVILLE.................................        92       121        91       103        64        68        86       117        82        53        44        74        62        63        78
NEW YORK..................................        91       150        99       135        85        56       132       104        94        92        62        66        52       121        72
OLC.......................................       610       644       683       764       272        85         4     9,541       192       102     9,011     9,653       814     1,376      1531
OSH.......................................     1,484     1,228     1,088     1,168       739     1,295       950     1,120     1,321       509       436       674       445       219       432
PBSD......................................       515       473       543       549       385       502       502       612       658       311       112        59       105       103       186
PHILADELPHIA..............................        77        78        85        63        53        75        86        86        63        56        22        12        23        25        11
SAN FRANCISCO.............................       110       163       103        84        64       119       138        99        70        59        34        41        43        56        65
SEATTLE...................................        14        46        29        16        10        15        41        29        11        16         2         6         5         9         5
                                           -----------------------------------------------------------------------------------------------------------------------------------------------------
      TOTAL...............................     8,284     7,455     7,574     7,980     5,039     6,154     6,782    19,503     7,579     3,366    16,538    16,540     4,796     5,691     6,330
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Fiscal year 2009 actuals through 5/31/09.Note: Opinion.--The interpretations of law and regulations that SOL attorneys are requested to provide.
    Advice.--A request (oral or written) for information from the general public or client agency relating to a specific matter of law.
    Matter.--Something for which the receiving office has demonstrated responsibility (i.e., is authorized to take action) for providing legal services and which is referred from any source
  for possible action.


                                                                                       REGULATION MATTERS
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                Received                                          Concluded                                          Pending
                                           -----------------------------------------------------------------------------------------------------------------------------------------------------
                  Office                     Fiscal    Fiscal    Fiscal    Fiscal    Fiscal    Fiscal    Fiscal    Fiscal    Fiscal    Fiscal    Fiscal    Fiscal    Fiscal    Fiscal    Fiscal
                                              year      year      year      year      year      year      year      year      year      year      year      year      year      year      year
                                              2005      2006      2007      2008    2009 \1\    2005      2006      2007      2008    2009 \1\    2005      2006      2007      2008    2009 \1\
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
ARLINGTON.................................  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........
ATLANTA...................................  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........
BLLLS.....................................         3         1  ........         1         1         1         3  ........         1  ........         5         2         1         1         2
BOSTON....................................  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........
CHICAGO...................................  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........
CLEVELAND.................................  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........
CRLM......................................        10        11         9         5  ........        14        15         7         8         1         8         5         6         3         1
DALLAS....................................  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........
DENVER....................................  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........
ETLS......................................        10         7         9         8        12         1        16        16        12         9        34        25        17        14        17
FEEWC.....................................         2         2  ........         3  ........         3         2         1  ........  ........         1         1         4         2         3
FLS.......................................         4         6         2         6         5         4         3         8         1         2        16        14        11        12        16
HONORS....................................         9         9         2         5         2         2  ........        18  ........  ........        18        27        11        16        18
KANSAS CITY...............................  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........
LOS ANGELES...............................  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........
MALS......................................         4  ........  ........         1  ........         1  ........        20         3  ........        23        23         2         3  ........
MSH.......................................        15        10        13        12         7         6  ........        41        17        21        55        65        39        36        16
NASHVILLE.................................  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........
NEW YORK..................................  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........
OLC.......................................         1  ........  ........  ........  ........  ........  ........         6  ........  ........         6         6  ........  ........  ........
OSH.......................................        30        16        13        46        33        44        21        21        46        13        52        42        30        30        51
PBSD......................................        43        41        44        39         5        40        35        51        33         6        24        27        27        26        22
PHILADELPHIA..............................  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........
SAN FRANCISCO.............................  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........
SEATTLE...................................  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........
                                           -----------------------------------------------------------------------------------------------------------------------------------------------------
      TOTAL...............................       131       103        92       126        65       116        95       189       121        52       242       237       148       143       146
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Fiscal year 2009 actuals through 5/31/09.Note: Regulation.--All workload matters that are related to the development and promulgation of regulations and standards.
    Matter.--Something for which the receiving office has demonstrated responsibility (i.e., is authorized to take action) for providing legal services and which is referred from any source
  for possible action.


                                                               CLIENT MSHA CASES RECEIVED
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                               Fiscal year 2008                                Fiscal year 2009
                                                         -----------------------------------------------------------------------------------------------
                         Office                                                                                                                 Fiscal
                                                              Q1          Q2          Q3          Q4        Fiscal        Q1          Q2        year to
                                                                                                          year total                             date
--------------------------------------------------------------------------------------------------------------------------------------------------------
ARLINGTON...............................................         275         275         375         364       1,289         244         142         386
ATLANTA.................................................          67         201         145         138         551          67          56         123
BOSTON..................................................          12          27          49          22         110           8  ..........           8
CHICAGO.................................................          63         102         149         104         418          85          59         144
CLEVELAND...............................................  ..........           7          25          20          52          11          10          21
DALLAS..................................................          52          75          85          93         305          44          30          74
DENVER..................................................         172         262         196         206         836         122          56         178
FEEWC...................................................           4           2           1           1           8           2  ..........           2
HONORS..................................................  ..........  ..........  ..........  ..........  ..........  ..........          22          22
KANSAS CITY.............................................          11          93         166          39         309          38          13          51
LOS ANGELES.............................................          15         116          23          23         177          14          12          26
MALS....................................................          12          22          25          13          72          17           8          25
MSH.....................................................         153         162         196         213         724         222         173         395
NASHVILLE...............................................         323         376         352         363        1414         325         268         593
NEW YORK................................................          16          20          21          18          75           7           4          11
OSH.....................................................  ..........  ..........  ..........  ..........  ..........           1  ..........           1
PHILADELPHIA............................................         127         161         321         229         838         200          77         277
SAN FRANCISCO...........................................          57          61          84          65         267          39          17          56
SEATTLE.................................................          64          40          50          73         227          18          23          41
                                                         -----------------------------------------------------------------------------------------------
      GRAND TOTAL.......................................       1,423       2,002       2,263       1,984       7,672       1,464         970       2,434
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                                    CLIENT MSHA HOURS CHARGED
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                 Fiscal year 2008                                                Fiscal year 2009
                                                                 -------------------------------------------------------------------------------------------------------------------------------
                             Office                                                                                                                                               Fiscal year to
                                                                        Q1              Q2              Q3              Q4             Total            Q1              Q2             date
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
ARLINGTON.......................................................        2,476.75        2,878.00        2,937.00        3,272.50       11,564.25        2,708.50        2,804.25        5,512.75
ATLANTA.........................................................          835.50          847.50          880.75        1,111.00        3,674.75        1,004.50          797.75        1,802.25
BLLLS...........................................................  ..............  ..............             .50  ..............             .50  ..............  ..............  ..............
BOSTON..........................................................          432.00          385.50          418.00          702.75        1,938.25          485.25          510.50          995.75
CHICAGO.........................................................        1,343.25        1,692.00        1,894.50        2,438.50        7,368.25        1,674.50        1,674.50        3,349.00
CLEVELAND.......................................................  ..............           79.00          220.50          297.50          597.00          286.25          290.25          576.50
CRLM............................................................  ..............            1.00  ..............  ..............            1.00  ..............  ..............  ..............
DALLAS..........................................................          978.00          819.75        1,257.50        1,171.50        4,226.75          857.75        1,041.50        1,899.25
DENVER..........................................................        1,498.75        1,947.25        1,728.00        2,108.75        7,282.75        1,886.50        1,814.25        3,700.75
ETLS............................................................  ..............  ..............  ..............            6.75            6.75  ..............  ..............  ..............
FEEWC...........................................................           80.75           97.50          202.75           47.25          428.25          237.50          263.75          501.25
FO..............................................................             .50  ..............            3.50            4.75            8.75           42.00  ..............           42.00
HONORS..........................................................             .50  ..............  ..............  ..............             .50           63.75          468.50          532.25
KANSAS CITY.....................................................          332.75          438.25          797.50          817.50        2,386.00          688.25          847.75        1,536.00
LOS ANGELES.....................................................          174.00          234.50          407.50          387.25        1,203.25          290.75          309.25          600.00
MALS............................................................          160.25          195.75          251.25          153.25          760.50          570.75          755.25        1,326.00
MSH.............................................................        7,752.50        8,627.75        9,189.25        9,457.25       35,026.75        8,265.75        8,256.25       16,522.00
NASHVILLE.......................................................        2,816.25        3,742.00        3,146.25        3,286.25       12,990.75        3,513.75        2,985.50        6,499.25
NEW YORK........................................................          220.50          237.00          265.25          345.25        1,068.00          217.25           84.75          302.00
OSH.............................................................             .00             .00            1.00             .00            1.00             .25             .00             .25
PBS.............................................................           40.00  ..............  ..............  ..............           40.00  ..............  ..............  ..............
PHILADELPHIA....................................................        2,602.50        3,575.50        4,286.25        4,081.00       14,545.25        3,603.00        4,526.25        8,129.25
SAN FRANCISCO...................................................        1,170.25        1,035.25        1,117.25        1,132.00        4,454.75        1,005.75          925.50        1,931.25
SEATTLE.........................................................          400.25          426.50          792.50          616.00        2,235.25          415.25          303.75          719.00
                                                                 -------------------------------------------------------------------------------------------------------------------------------
      GRAND TOTAL...............................................       23,315.25       27,260.00       29,797.00       31,437.00      111,809.25       27,817.25       28,659.50      56,476.755
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

    Fiscal Year 2009 and Fiscal Year 2010 Staffing Levels by SOL 
Office.--SOL is increasing its appropriated FTE level to a projected 
maximum of approximately 646 FTE by the end of fiscal year 2009, and 
further increasing to approximately 679 FTE during fiscal year 2010. 
These additional FTE are almost entirely attorneys and legal support 
staff dedicated to supporting the enforcement and other legal services 
required by the Department. SOL's fiscal year 2009 appropriation has 
enabled the agency to continue to pay for 22 additional FTE that were 
added in fiscal year 2007 and fiscal year 2008 in response to the 
dramatic increase in MSHA-related matters being received by SOL. As the 
result of an memorandum of understanding signed in October 2008 between 
MSHA and SOL, the level of SOL's MSHA caseload is stabilizing. This 
stabilization is enabling SOL's regions to provide more attention to 
MSHA's most important cases and needed legal enforcement support and 
other services to OSHA, EBSA, WHD, OFCCP, and other DOL agencies.
    The current intention is that SOL's FTE complement will be 
assigned, as follows. The fiscal year 2010 assignments are tentative, 
and subject to further review.

----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year     Fiscal year
                           SOL offices                                 2008            2009            2010
----------------------------------------------------------------------------------------------------------------
Immediate office................................................  ..............              10               8
    Office of Legal Counsel.....................................  ..............              13              13
    Honors program..............................................  ..............               7              15
National office divisions:
    Management and Administrative Legal Services................  ..............              57              60
    Black Lung Longshore Legal Services.........................  ..............              29              30
    Civil Rights and Labor-Management...........................  ..............              33              34
    Employment Training Legal Services..........................  ..............              25              26
    Fair Labor Standards........................................              21              25              26
    Federal Employees' and Energy Workers' Compensation.........  ..............              13              14
    Mine Safety and Health......................................              31              31              31
    Occupational Safety and Health..............................              33              36              37
    Plan benefits security......................................              35              40              42
Regions:
    Region 1--Boston............................................  ..............              28              29
    Region 2--New York..........................................  ..............              37              39
    Region 3--Philadelphia......................................  ..............              53              56
    Region 4--Atlanta...........................................  ..............              53              57
    Region 5--Chicago...........................................  ..............              47              48
    Region 6--Dallas............................................              33              36
    Region 7--Kansas City.......................................  ..............              38              39
    Region 8--San Francisco.....................................  ..............              38              39
----------------------------------------------------------------------------------------------------------------
Note. Most of the enforcement and other litigation that supports ESA and OSHA takes place in the SOL regional
  offices.

    Matters Pending.--The short answer to the query regarding the 
reason for, and impact of the continuing increases in ``matters 
pending'' projected for the end of fiscal year 2009 and of fiscal year 
2010 is that although SOL expects to be able to conclude more matters 
during the same periods as the result of additional FTE, the number of 
``matters pending'' is projected to increase at an even greater rate.
    The impact is that SOL will continue to have to take action in 
those matters that more directly impact the strategies and goals of the 
Secretary and client agencies, and not attend to all pending matters. A 
more detailed explanation follows:
    The category of ``matters pending'' represents the actual or 
projected number of legal matters that are pending in SOL at the end of 
a fiscal year. SOL calculates this workload statistic in each of the 
three primary categories of work that the agency performs: litigation, 
opinion/advice, and regulatory work. During the past several fiscal 
years (fiscal year 2007 and fiscal year 2008), SOL has experienced an 
actual increase in the number of pending matters in all three 
categories, as follows:

----------------------------------------------------------------------------------------------------------------
                                                    Fiscal year     Fiscal year     Fiscal year     Fiscal year
                 Matters pending                       2007            2008            2009            2010
----------------------------------------------------------------------------------------------------------------
Litigation......................................          12,826          17,200          19,949          22,468
Opinions/advice.................................           3,948           4,737           5,175           5,518
Regulations.....................................             128             150             157             144
----------------------------------------------------------------------------------------------------------------

    The ``matters pending'' category for any given fiscal year results 
from adding the total number of ``matters pending'' at the end of the 
prior fiscal year, plus the total ``matters received'' during the 
fiscal year, and then subtracting from that number the total ``matters 
concluded'' by SOL during the fiscal year.
    Because SOL has experienced a growth in overall workload over the 
past several years, and because of increases in enforcement-related FTE 
in SOL's client agencies, as well as worker protection law enforcement 
activity, SOL initially projects continuing increases in this workload 
statistic for fiscal year 2009 and fiscal year 2010. The magnitude of 
the projected increases in this statistic have, however, been 
significantly influenced by another factor: the increase in SOL FTE 
during fiscal year 2009 from a current level of about 610 to 
approximately 646 by the end of this fiscal year; and an additional 
increase to approximately 679 FTE by the end of fiscal year 2010.
    Because of these projected FTE increases, using fiscal year 2008 
actual ``matters concluded'' as a base, SOL also projects that it will 
be able to conclude an additional 906 matters in fiscal year 2009, and 
an additional 3,299 matters in fiscal year 2010. While an inflexible 
correlation between output and numbers of FTE is not possible, due to 
the wide variation in the size and complexity of legal matters and the 
varying arrival dates of new FTE, this overall 12 percent increase in 
output between fiscal year 2008 and fiscal year 2010 corresponds with 
the 11 percent increase in FTE from the current level of about 610 to 
the projected level of 679 in fiscal year 2010. This increase in SOL's 
capacity to conclude matters has lowered the projected increase in 
``matters pending'' at the end of fiscal year 2009 and fiscal year 
2010.
    However, because our projections regarding increased capacity 
resulting from increased FTE are not as large as the projected 
increases in workload, the agency still projects a net increase in the 
``matters pending'' at the end of the current fiscal year, and fiscal 
year 2010.
    The impact of this continuing increase in the projected work load 
for SOL will require the agency to work intensively with the Secretary 
and client agencies to ensure that SOL's resources are focused on the 
matters that are most significant in advancing the goals of the 
Department and its agencies. Put simply, SOL will continue to be 
required to ``triage'' matters so as to take action regarding those 
that are more critical to the successful achievement of the Secretary's 
goals and DOL agency strategies.

                                            UPDATED WORKLOAD SUMMARY
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year     Fiscal year
                                                                    2008 actual     2009 target     2010 target
----------------------------------------------------------------------------------------------------------------
Legal services:
    Litigation:
        Matters received........................................          17,059          17,997          18,987
        Matters concluded.......................................          14,507          14,870          16,506
        Matters pending.........................................          15,438          18,565          21,046
    Regulation:
        Matters received........................................             126             139             139
        Matters concluded.......................................             121             133             140
        Matters pending.........................................             143             149             148
    Opinion/advice:
        Matters received........................................           7,980           8,419           8,882
        Matters concluded.......................................           7,579           8,110           8,860
        Matters pending.........................................           5,691           6,000           6,022
Budget activity total...........................................          94,900         108,364         125,226
----------------------------------------------------------------------------------------------------------------

               flex-options project at the women's bureau
    Question. In the congressional budget justification, the Department 
states that it intends to continue and improve the Flex-Options project 
at the Women's Bureau. How much is currently spent on this project and 
how much is included in the 2010 budget request? What has been the 
experience with this project and associated outcomes? What changes are 
being considered for the project?
    Answer. Launched in 2004, the Women's Bureau Flex-Options project 
encourages business owners of all sizes and types to establish or 
expand workplace flexibility policies and programs such as 
telecommuting, part-time work, job-sharing, and compressed workweeks.
    For fiscal year 2009, the Women's Bureau will spend approximately 
$2 million on the Flex-Options project and plans to spend a similar 
amount in fiscal year 2010. Flex-Options has the equivalent of over 12 
FTEs, spanning national and regional office activities, dedicated to 
the project, as well as national and regional contractors who also 
support Flex-Options. The contracts, which total $200,000-$300,000 
annually, help manage the website, create and distribute newsletters 
and a Flex-Options toolkit, as well as work with companies to set up 
flexible workplace options.
    While the Department has not conducted an impact evaluation to 
determine the outcomes of the project (e.g., whether it increases the 
number of programs or employees that have access to new flexible 
policies/programs), the number of employers participating in the Flex-
Options project has increased each year. Over the life of the project, 
Flex-Options has assisted over 800 employers in creating or expanding 
more than 1,800 workplace flexibility policies, affecting 1 million 
employees.
    In addition to reaching out to more employers, the Bureau is also 
expanding outreach and educational efforts to State/local governments 
and university consortiums of employers to promote workplace 
flexibility as a way to achieve environmental goals (e.g., improved air 
quality) or meet economic challenges. In 2008, Flex-Options had 
successful partnerships with the cities of Houston and Atlanta to 
encourage city governments in supporting flexible workplace options. 
The Women's Bureau is continuing to work with local governments in 
2009, as well as expanding to university consortiums in 2010.
    Workplace flexibility is a powerful response to the needs of 
millions of women and men who face the challenge of trying to balance 
the demands of their jobs and the needs of their families. It is also a 
vital tool that progressive companies are using to get work done, and 
it is a tool that can be used as a strategic component of any workplace 
contingency plan.
                              ilab funding
    Question. The Bureau of International Labor Affairs (ILAB) is 
requesting an increase of more than $5 million and 12 FTEs in the 
fiscal year 2010 budget request. To which ILAB office or offices and 
for what activities would ILAB allocate these additional staffing 
resources requested under the budget request? ILAB has approximately 
140 projects in more 80 countries around the world. Does the requested 
increase provide additional funds/FTEs to oversee this significant 
investment of taxpayer resources?
    Answer. ILAB's budget has been constrained in recent years, while 
its mandates have expanded significantly. This budget increase allows 
ILAB to more fully and effectively meet its responsibilities. One of 
the primary purposes of the increased funding and FTEs is to increase 
ILAB's capacity to address the implementation of the labor commitments 
in U.S. FTAs--an area that has not been adequately supported in the 
past. ILAB will also strengthen its oversight, monitoring, and 
evaluation functions and reinforce its research activities to ensure 
that ILAB reporting is more analytical and strategically useful to 
Congress and the public.
    Roughly $1.56 million of the additional $5 million requested in 
fiscal year 2010 will be used to fund 12 new FTEs. The Bureau will hire 
comparative labor law experts, development and labor economists and 
international relations officers. The Bureau also plans to hire a 
career Associate Deputy Undersecretary to assist with the overall 
management and operation of the Bureau. ILAB will use about $2 million 
for monitoring, enforcement, and cooperative activities and $1.44 
million for research and reporting.
    The fiscal year 2010 funding increase ensures effective oversight 
of our extensive technical assistance programs to combat child labor 
and improve working conditions overseas, improved reporting on child 
labor, forced labor, human trafficking, and other core labor standards, 
and improvements in the labor diplomacy portfolio of the Bureau.
                        ilab's project portfolio
    Question. In the 2009 appropriations act, Congress stated its 
intention for ILAB to have sufficient funding to effectively oversee, 
monitor, audit, and evaluate ILAB's project portfolio. How would the 
fiscal year 2010 budget request allocate funding to ensure that this 
priority is addressed, particularly in the child labor project 
portfolio which is the most significant part of ILAB's project 
portfolio?
    Answer. The 2010 budget request includes additional funding and 
FTEs to ensure that ILAB has the resources needed to properly oversee, 
monitor, audit, and evaluate its ongoing technical cooperation 
programs, including those to combat exploitive child labor. ILAB's 
experience has demonstrated the importance of funding for such 
oversight in order for ILAB to assess project performance, take 
corrective actions where necessary, and as a result, to maximize the 
impact of the funding ILAB allocates for these projects. Funds 
requested in the fiscal year 2010 budget reflect ILAB's understanding 
of the actual costs associated with such oversight activities, and ILAB 
believes the requested level of resources will allow ILAB to fulfill 
its responsibilities related to program oversight.
                              ilab funding
    Question. The congressional budget justification notes that ILAB 
plans to significantly improve its ability to monitor labor issues in 
Free Trade Agreement (FTA) countries, provide a strengthened mechanism 
for enforcement of trade agreements, develop cooperative activities 
with FTA partners, and research facts relating to specific labor 
situations and submissions. Please indicate what specific actions ILAB 
intends to take and how it will work with other Federal agencies to 
carry-out these activities? Does the President's budget include funding 
for other Federal agencies that will be transferred to ILAB in support 
of this effort? If so, how much funding is included in the budget 
request and for what activities?
    Answer. The requested increase of $5,000,000 would enable ILAB to 
develop systematic monitoring and analysis of labor issues in FTA 
countries. It includes additional staff that has the expertise to 
collect, analyze, and engage with partner countries to address 
deficiencies in labor law and practice. It also includes resources to 
provide cooperative assistance to trade partners to address labor 
deficiencies, such as providing expert assistance from DOL or other 
recognized sources. Importantly, when engagement and cooperation are 
not sufficient, the additional resources would enable ILAB to pursue 
enforcement of the labor obligations of the FTAs, including use of 
dispute settlement provisions. The labor obligations of our FTAs should 
be enforced just as our commercial obligations have been.
    In order to carry out these activities, ILAB will have the primary 
responsibility for conducting the proposed monitoring and analysis of 
labor issues. However, ILAB will work closely with labor officers in 
U.S. missions, and relevant staff at USTR, State, and other agencies. 
For example, the Department of Labor will take the lead in developing 
annual labor-related strategic plans of engagement for each FTA 
partner, which will be coordinated with USTR, State, and other relevant 
agencies to address labor issues in trade partner countries. On 
enforcement issues involving FTA obligations, ILAB will work closely 
with USTR on developing and pursuing dispute settlement cases. While 
these activities would represent a shift in focus to more active U.S. 
Government engagement on labor issues, the burden of the activity would 
rest with ILAB. ILAB would not be assuming functions that are already 
being carried out by other Federal agencies.
                    departmental program evaluations
    Question. The 2010 budget request includes $5 million to, among 
other things, fund high-quality evaluations of its programs, including 
those outside of job training and employment. Specifically, what 
activities are under consideration for evaluation, if the requested 
funds are provided? How would the $5 million request be allocated among 
this initiative's activities, including new evaluations, high standards 
in evaluations funded by the Department, building evaluation capacity 
in the Department and making sure evaluations/research findings inform 
policymakers and program managers?
    Answer. The $5 million for Departmental Program Evaluations is to 
conduct high-quality evaluations of DOL programs beyond job-training 
and employment services, which are currently evaluated using resources 
appropriated to the Employment and Training Administration. At this 
point, an evaluation agenda has not been finalized, but priority will 
be given to large, lightly examined, and/or high-priority programs. 
This effort could be focused on any of the worker protection agencies. 
There will also be an effort to ensure the rigor of evaluations 
Department-wide.
                      performance targets for odep
    Question. Under the budget proposal, the performance targets for 
the Office of Disability Employment Policy (ODEP) go down from the 
results achieved in fiscal year 2008. In the case of the number of 
policy-related documents, there is a reduction from 44 in fiscal year 
2008 to 32 in fiscal year 2010; for formal agreements, the reduction is 
26 in fiscal year 2008 to 22 in fiscal year 2010 and for effective 
practices the reduction is 37 in fiscal year 2008 to 23 in fiscal year 
2010. What has been the impact of ODEP's policy documents, formal 
agreements, and effective practices? Do these document and agreements 
impact disability employment policies across the Federal Government? 
Will the Department explain why a reduction in performance is estimated 
for ODEP?
    Answer. ODEP's annual performance output measures are designed to 
capture the annual results of the agency as it works to develop policy 
for implementation across the Federal Government that will reduce 
barriers to employment for people with disabilities. ODEP has been 
tracking effective practices since fiscal year 2004 and policy 
documents and formal agreements since fiscal year 2006. ODEP created 
output measures that recognize that policy development often occurs 
across fiscal years. ODEP's annual targets are based on an average of 3 
prior years of results, plus 10 percent. The targets are set with this 
formula to account for fluctuations in resources or other anomalies 
that could impact ODEP's performance. As it does every year, at the end 
of fiscal year 2009, ODEP will assess its performance and revise its 
annual performance output targets as necessary. Under its new 
leadership, ODEP also plans to revisit its performance measures.
    Since its creation in fiscal year 2001, ODEP has developed policy 
documents, established a wide range of formal agreements, and 
identified, validated, and assisted with the replication of effective 
practices. These activities have helped to reduce barriers to 
employment that exist in workforce systems, workplaces, and in 
employment-related supports programs and services (e.g., 
transportation, healthcare, technology). ODEP's results have influenced 
policy and practice within the Department of Labor and across the 
Federal Government, State and local governments, nongovernmental 
organizations, and large and small businesses. A few examples of ODEP's 
work with regard to disability employment policies across the Federal 
Government over ODEP's history are included below.
    ODEP's work with adult-focused workforce systems is exemplified by 
the development and implementation of the WIA section 188 Memorandum 
and Checklist. This formal agreement signed by the Department's Office 
of the Assistant Secretary for Administration and Management, ODEP, and 
ETA provided One-Stop Career Centers with measurable ways to comply 
with section 188 of the WIA and documented strategies for One-Stop 
Career Center staff and other workforce system personnel to more 
effectively respond to the needs of people with disabilities.
    ODEP's work with youth-focused workforce systems is demonstrated by 
the Transition Programs and Services: High School/High Tech and 
Vocational Rehabilitation Information Memorandum (RSA-IM-07-08). This 
policy document was developed under ODEP's leadership in collaboration 
with the Departments of Health and Human Services and Education (OSERS/
RSA). It provides information to State Vocational Rehabilitation 
agencies about ODEP's High School/High Tech program as a comprehensive 
transition program model with a number of promising practices that is 
based upon the Guideposts to Success, also developed by ODEP.
    ODEP has worked to influence employer policy through the Office of 
Federal Contractor Compliance Programs (OFCCP) Directive, Transmittal 
Number: 281, OFCCP ORDER NO.: ADM Notice/Other--Federal Contractor's 
Online Application Selection System. This policy document, developed by 
ODEP's leadership in collaboration with OFCCP, provides guidance on 
enforcing section 503 of the Rehabilitation Act of 1973 and the Vietnam 
Era Veterans' Readjustment Assistance Act of 1974 (VEVRAA). It requires 
that all compliance evaluations include a review of the contractor's 
online application systems to ensure that the contractor is providing 
equal opportunity to qualified individuals with disabilities and 
disabled veterans.
    Finally, a result of ODEP's effort and collaboration with the 
Bureau of Labor Statistics is the recent and historical publication of 
the unemployment rate for people with disabilities as part of the 
Current Population Survey. ODEP's leadership in collaboration with the 
BLS and the Census resulted in this significant accomplishment. This 
data will be used by agencies in the Department, other Federal 
agencies, and other stakeholders critical to addressing disability and 
employment issues.
                    disability navigators initiative
    Question. The fiscal year 2010 congressional budget justification 
indicates that a comprehensive evaluation of the Disability Navigators 
initiative is in the works and scheduled to be completed sometime 
around the end of 2010. Yet the budget proposes to establish a new $10 
million Competitive One-Stop Grant program based on the lessons learned 
from the Disability Navigator program. Specifically, what lessons 
learned would the Department of Labor apply in this new program? Using 
what evaluation were these lessons learned?
    Answer. Although the comprehensive evaluation of the Disability 
Navigators initiative will not be completed until late fiscal year 
2010, the Department has identified numerous sources of interim data 
and other feedback to support moving to the next step for this critical 
effort. These sources include the ETA Forum on Disability Program 
Navigator (DPN) Initiative--Role and Impact (June 2009), and 
evaluations of ODEP's Customized Employment demonstration projects 
housed in One-Stop Career Centers that coordinated with Disability 
Program Navigators to ensure meaningful and effective service to 
customers with disabilities (Evaluation of Disability Employment Policy 
Demonstration Programs: A Synthesis of Key Findings, Issues, and 
Lessons Learned--Customized Employment Program Priority Area, WESTAT, 
October 2007; Employers and Workers: Creating a Competitive Edge, 
Summary Report on Customized Employment Grants and Workforce Action 
Grants, National Center on Workforce and Disability/Adult, July 2007).
    The DPN initiative has two purposes for ensuring that job seekers 
with disabilities receive meaningful service at One-Stop Career 
Centers. These include (1) the responsibility to ensure the appropriate 
provision of service to individuals, and (2) the responsibility to 
reach out to and coordinate with other systems and agencies identified 
under the WIA, as well as reach out to and coordinate with additional 
systems that provide specific service to people with disabilities. The 
overall goal is more effective coordination and integration of 
resources and customer support across multiple systems--an essential 
charge of the WIA and a critical need for people with disabilities.
    In particular, based on available information the DPN initiative 
identified effective practices for serving people with disabilities 
that touch on all aspects of One-Stop operations: marketing and 
outreach; orientation; assessment; service coordination; service 
delivery; and business services. Central to these practices was the 
concept of the One-Stop as the hub of activity and support for 
workforce entry, securing needed supports and leveraging funding across 
multiple systems, and ensuring effective job placement. In their work, 
the navigators found that people with disabilities benefited from their 
expertise in navigating multiple social service systems. If a job 
seeker required assistance with transportation or housing, or 
assistance accessing needed Social Security or Medicaid benefits, the 
navigator often became the ``go-to'' person. Based on this preliminary 
evidence, there is a continued need to equip One-Stop Career Center 
staff to help individuals with disabilities navigate across service 
systems.
    The case examples and informal feedback from the field have 
underscored the value of integrating the navigator function into One-
Stop operations and the need for ETA to take the lessons learned to a 
national scale. ODEP is analyzing data and feedback on the DPN 
initiative and the agency's own external evaluations of projects housed 
in One-Stop Career Centers, to determine specific next steps in 
building a system responsive to the needs of job seekers with 
disabilities. A partnership between ETA and ODEP in this regard offers 
unique opportunities for the provision of national technical assistance 
and rapid dissemination of information to the field, as well as 
additional feedback based on the continued experiences of One-Stops as 
they develop effective and fully accessible services and facilities for 
all job seekers.
   improving the employment process for individuals with disabilities
    Question. The 2010 congressional budget justification also 
indicates that ``ODEP will partner with the Department of Education's 
Rehabilitative Services Administration and others to develop policy and 
effective practices to improve One-Stop employment outcomes for 
individuals with Disabilities.'' What specific actions would the 2010 
budget request support? To date, what specific policies or practices 
has ODEP developed in support of this effort?
    Answer. In 2010, ODEP will partner with the U.S. Department of 
Education's Rehabilitative Services Administration (RSA) and others to 
undertake a new $10,000,000 competitive grant program that will focus 
on One-Stops, and work with employers, labor-management partnerships, 
labor unions, and other stakeholders to improve the employment process 
for individuals with disabilities utilizing pre-apprenticeship and 
apprenticeship programs, and career-related community service 
opportunities. In developing this program, ODEP will build upon the 
lessons learned from the Disability Navigator Program, and other ODEP 
projects as they relate to effectively coordinating training and the 
delivery of other needed services to people with disabilities within 
the One-Stop system. In addition, ODEP will work with ETA to identify 
policies and practices that have proven effective in the development of 
meaningful partnerships with community-level partners that provide 
employment-related services to youth and adults with disabilities.
    With regard to what specific policies or practices ODEP has 
developed in support of this effort, the following are noteworthy. ODEP 
collaborated with ETA in drafting and issuing a Self-Employment 
Training for Workforce Investment Act Clients--Technical Employment 
Guidance Letter (TEGL) 16-04 2005 describing the authorities provided 
by the WIA for One-Stops to provide entrepreneurship training and to 
identify resources that can support the efforts of people with 
disabilities to start businesses.
    ODEP collaborated with DOL's ETA and its Civil Rights Center to 
jointly develop and issue the WIA section 188 Memorandum and Checklist. 
The checklist provides a uniform procedure for measuring compliance 
with those provisions of section 188 of the Workforce Investment Act of 
1998 and the implementing regulations (29 CFR Part 37) that pertain to 
persons with disabilities for physical, programmatic, and communication 
accessibility. Any technical assistance provided by ODEP to the One-
Stops will use this checklist as a resource.
    ODEP has worked with ETA's Office of Apprenticeship in 2009 to 
research, test, and evaluate innovative systems models for providing 
inclusive integrated apprentice training in a high-growth industry to 
youth and young adults with disabilities, aged 16 to 27, including 
those with the most significant disabilities, that utilize the 
increased flexibilities detailed in DOL's newly released apprenticeship 
regulations regarding the provision of training and interim 
credentialing. ODEP implemented a 6-year demonstration to advance 
customized employment in One-Stop Career Centers. Lessons learned from 
this initiative will be used to design the next step in creating a 
universally accessible workforce development system.
    In the summer of 2009, ODEP and ETA's Office of Apprenticeship will 
issue a joint Training and Employment Notice. This notice will 
disseminate a white paper and toolkit developed through ODEP's research 
and technical assistance activities which focus on expanding 
apprenticeship opportunities for youth and young adults with 
disabilities. The white paper entitled Improving Transition Outcomes of 
Youth with Disabilities by Increasing Access to Apprenticeship 
Opportunities, which is geared to policymakers, provides an overview of 
the Registered Apprenticeship system in the United States, explores 
current trends in apprenticeship, and examines opportunities for youth, 
including those with disabilities. In addition, it identifies obstacles 
to expanding participation of youth with disabilities in apprenticeship 
programs and provides strategies for addressing these obstacles. The 
toolkit, entitled Youth with Disabilities Entering the Workforce 
Through Apprenticeship, is intended to provide service providers with 
useful information about apprenticeship as an employment strategy for 
youth and young adults with disabilities.
    As the result of a 3-year ODEP-initiated effort with DOL's Office 
of Apprenticeship, and the Employment Standards Administration's WHD, 
the Office of Apprenticeship added language to their new regulations to 
allow apprenticeship programs to be customized to provide intermediate 
levels of certification for apprentices to demonstrate their level of 
proficiency in apprenticeable occupations.
    In planned future activities, ODEP will build on its prior policy 
efforts to support entrepreneurs with disabilities through technical 
assistance and grants. ODEP will fund a workforce-systems focused 
cooperative agreement to support mentoring opportunities for young 
people with disabilities from minority communities who are 
transitioning from school (secondary or postsecondary) and interested 
in entrepreneurship. In developing this initiative, ODEP will partner 
with stakeholders in the public and private sectors, including minority 
Chambers of Commerce, and leverage existing resources on mentoring and 
entrepreneurship developed by ODEP. ODEP will also work with ETA to 
evaluate the physical and programmatic accessibility of the One-Stop 
Center system, and partner with ETA and Labor's Civil Rights Center as 
appropriate to address any identified deficiencies through the 
expansion and adoption of universal strategies, the provision of 
targeted technical assistance, and other corrective measures deemed 
necessary.
                          job corps operations
    Question. The budget indicates that $8 million of the $16.923 
million increase for Job Corps will be for the opening of the Milwaukee 
Job Corps center, with the remaining $8.923 million for the remaining 
123 Job Corps centers. is this amount sufficient to offset the rising 
costs of operating Job Corps centers?
    Answer. The fiscal year 2010 request for Job Corps Operations is 
$1,557,199,000, an increase of $16,923,000 over the 2009 enacted level. 
This request will allow Job Corps to serve more youth than in 2009, 
support anticipated increases in fixed costs at centers, and fund cost-
of-living increases for Federal staff at 28 Agency-operated centers. 
Only Federal employees at the Agency-operated centers are eligible to 
receive the federally mandated cost-of-living increases.
    The fiscal year 2010 request supports 44,950 student slots-an 
increase of 495 over the 2009 targeted level. The request includes 
funding for additional slots at the new Milwaukee Job Corps Center, 
scheduled to open in program year 2010. The fiscal year 2010 request 
also provides increases for some critical activities including funding 
for workload increases for Outreach/Admissions and Career Transition 
contracts. It also supports the anticipated increases in fixed costs at 
centers, such as utilities and GSA vehicle rental, and includes 
sufficient funds for mandated cost-of-living increases for the Federal 
staff at the 28 Agency-operated centers. Job Corps remains committed to 
improving program efficiency without compromising the basic services, 
such as academic and career technical training, provided to our 
enrollees.
    Additionally, Job Corps will use $36 million in Recovery Act funds 
to support critical IT infrastructure and operations needs. The 
Recovery Act funds designated for green jobs training will allow us to 
realize operational savings in the areas of Career Technical Skills 
Training supplies and materials for hands-on training projects. It will 
allow the program to increase the provision of green jobs training so 
that at-risk youth who participate in Job Corps will be well situated 
to benefit from the new green economy.
    Question. How will centers achieve the vision of building a 
standards-based education and training system under the budget request?
    Answer. It will be a challenge, but the Department remains 
committed to improving program efficiency without compromising basic 
services, such as academic and career technical training, provided to 
our enrollees. While Job Corps' legislative mission remains the same--
to educate and train promising youth to be productive workers and 
citizens--how Job Corps performs this mission is being significantly 
transformed. At the heart of Job Corps' new direction is the 
implementation of a Standards-based Education and Training System 
leading to industry-recognized credentials and certifications for 
students, staff, and programs, and the system-wide structural and 
organizational changes concerning professional development, policy, 
technology and related areas essential to achieving the transformation. 
Job Corps' transformation is occurring incrementally and over time in 
four phases. Job Corps has recently completed phase two, the 
development of 38 national Career Technical Training programs which 
have been revised and aligned with industry standards and 
certifications. In phase three, Job Corps will extend the 
implementation of these programs to all centers system-wide. By program 
year 2010, the Department of Labor expects Job Corps to begin phase 
four, the full-scale, nationwide implementation of a fully-tested, 
evidence-based National Model of standards-based education and 
training.
    Question. Are there specific cost-savings or efficiencies that the 
Department believes can be implemented? If so, please explain what they 
are and how much can be save through these initiatives.
    Answer. Job Corps intends to achieve cost savings and efficiencies 
through the use of energy efficient construction methods, fleet 
reduction and the increased use of alternative fuel vehicles. As a 
result, we estimate a savings of up to $5 million annually.
    The recently awarded Iowa Job Corps Center construction project 
will utilize energy efficiencies such as a ground source heat pump, 
upgraded wall and roof insulation, lighting controls, high-efficiency 
lighting, Energy Star equipment, and low flow plumbing fixtures. By 
building to these specifications Job Corps estimates that annual energy 
costs at this center will be reduced by $82,000 annually compared to 
construction that does not incorporate these efficiencies.
    Job Corps will gain vehicle efficiencies by simultaneously reducing 
the overall size of its fleet while increasing the number of 
alternative fuel vehicles (AFVs). Recovery Act funds are being used to 
purchase electric vehicles for use at each Job Corps center. These 
American-made electric vehicles will supplant petroleum-based vehicles 
currently in use on centers in such areas as maintenance, security, 
administration, and program operations. The net result for centers and 
for Job Corps is greater fleet efficiency and lower carbon emissions 
for the same vehicle miles driven.
                slot reallocations at job corps centers
    Question. The congressional justification also indicates that in 
fiscal year 2009 that ``slots will be re-allocated from centers with 
continuing low on-board strength to high-performing centers that have 
been successful in the recruitment and retention of students.'' What 
standards will be adopted for such reallocations for both low on-board 
strength and high-performing centers?
    Answer. Job Corps longstanding position is that it is not prudent 
to allow some centers to maintain empty training slots year after year 
when there are centers with waiting lists. To ensure that there are 
opportunities for all students wanting to enroll in the program, 
reallocating slots from centers that underutilize slots promotes an 
effective use of funds. Job Corps will conduct a detailed analysis of 
the low on-board strength (OBS) centers to determine the appropriate 
number of slots that should be moved from one center operator's 
contract and added to another. The analysis examines on-board-strength 
data and the performance data for all centers to determine those 
centers with continuing low OBS and their performance levels. 
Implementation of slot reallocation will coincide with the start of a 
new contract year for the center to ensure that there are minimal 
disruptions in service. The most recent analysis of low on-board 
strength was done in early 2007 and at that time, there were nearly 
4,000 empty training slots across the program. Centers with low OBS had 
slots reallocated to other centers, including New Orleans, Little Rock, 
and Cleveland.
    Question. How much would be reallocated in 2009 under this 
reallocation strategy?
    Answer. No determination has been made for program year 2009 yet. 
The Office of Job Corps will present options to the Office of the 
Secretary for program year 2009.
    Question. Would this same strategy be needed in fiscal year 2010 at 
the requested funding level?
    Answer. There may be a need to utilize the same strategy in 2010 if 
it is determined that there are still centers that are unable to fill 
their allocated training slots and there are still waiting lists.
                                 ______
                                 
            Questions Submitted by Senator Daniel K. Inouye
           responding to worker displacment in american samoa
    Question. As a result of Public Law 110-28, the minimum wage was 
increased in American Samoa and the Commonwealth of the Northern 
Mariana Islands (CNMI) by $0.50 per hour on July 24 and July 25, 2007, 
respectively. While opposed by the Congressional Delegates and 
Governors representing both territories, Public Law 110-28 also 
mandated automatic increases of $0.50 per hour every year thereafter 
until 2014 for American Samoa, and 2015 for the CNMI.
    After conducting an 8-month study of both economies, as mandated by 
Public Law 110-28, the U.S. Department of Labor (DOL) concluded that 
automatic increases would be harmful to both economies, although each 
economy was able to sustain the first increase. Given Chicken of the 
Sea's recent announcement to close its operations in American Samoa 
which will lead to the displacement of more than 2,100 workers, will 
the DOL support congressional action to place a hold on future 
increases until such time as the Government Accountability Office (GAO) 
can conduct a new study, due in April 2010, regarding the impact of 
past, present, and future increases on both economies?
    Answer. The Department must correct a misunderstanding of its 
report on the impact of the minimum wage increases on the economies of 
American Samoa and the CNMI. The DOL report produced during the prior 
administration was undertaken shortly after the first increases in the 
minimum wage, which limited the Department's ability to measure the 
impact. The report did not explicitly recommend a roll back. My staff 
has reviewed the report and based on the lack of detailed data they 
have concluded that it is very difficult to separate possible effects 
of the minimum wage increases from the effects of other economic 
forces. As noted in the report, the ability of the Department to fully 
assess and project the impacts of increases in the minimum wages 
applicable to American Samoa and the CNMI was constrained by the short 
timeframe available for observation of emerging effects and by the lack 
of timely labor market data for both territories. The fact that the 
increases are scheduled to be implemented gradually over an extended 
period of years is reason to expect that adverse impacts, if any, will 
be minimized, and the increase in earnings and spending power of island 
households as a result of the minimum wage increase will benefit the 
local economies.
    The closing of Chicken of the Sea's operations in American Samoa 
cannot be directly attributed to the expected minimum wage increase 
because the company moved its operations to the State of Georgia, where 
the higher Federal minimum wage applies. (The Federal minimum wage is 
currently scheduled to increase to $7.25 on July 24 of this year, while 
the American Samoan minimum wage for the fish canning and processing 
industry will remain at $4.76).
    Currently, the GAO is conducting a study of the impact of the 
minimum wage increase on American Samoa and the CNMI. The Department 
will certainly consider any legislation proposed by the Congress.
    Question. According to Congressman Faleomavaega, until passage of 
Public Law 110-28 and due to the territory's unique and fragile 
economy, DOL Special Industry Committees historically determined 
minimum wage rates in American Samoa. Would the administration support 
the Congressman's position of reinstating a modified version of Special 
Industry Committees for American Samoa and the CNMI in lieu of 
automatic increases as now mandated by Public Law 110-28?
    Answer. The Department will consider any legislation proposed by 
the Congress.
    Question. I am advised by Congressman Faleomavaega that more than 
2,100 workers in American Samoa will be displaced in September of this 
year when Chicken of the Sea relocates to Lyons, Georgia. Would the DOL 
support efforts to redirect a portion of the stimulus funds, held by 
DOL for American Samoa, to unemployed workers for purposes of job 
training and unemployment compensation, in view of the fact that the 
American Samoa government does not participate in the Unemployment 
Insurance program?
    Answer. The Department is aware of the worker displacement 
occurring in American Samoa, but does not have the authority to allow 
Recovery Act funds to be used as a substitute for unemployment 
insurance benefits. However, the Department recommends that the 
American Samoa government consider submitting a National Emergency 
Grant proposal that could provide job training, needs related payments, 
and other employment services to assist workers affected by the Chicken 
of the Sea relocation. Our office of Congressional and 
Intergovernmental Affairs and the Employment and Training 
Administration have had several discussions with Government officials 
about the process for applying for such a grant.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
         further collaboration with the department of education
    Question. I am concerned about those in our workforce that are not 
prepared for a turbulent, knowledge-based, technology-driven economy 
because they do not have the basic skills required by business to 
succeed in tomorrow's workplace. While 25 percent of today's jobs 
require a postsecondary credential or degree, an estimated 45 percent 
of all new jobs over the next decade will require such postsecondary 
credentials. More than 12 million adults without high school 
credentials are in the labor force today, and over 1 million young 
adults drop out of high school each year. We are the only highly 
developed democracy where young adults are less likely to have 
completed high school than the previous generation. I believe that 
adult education and literacy is a very important component of the 
workforce system.
    Have you and Secretary Duncan discussed how both departments can 
better meet the needs of the ever growing list of those seeking and 
needing adult education services--including basic education, English 
language training, and high school diploma preparation, to succeed in 
careers?
    Answer. The Departments of Labor and Education have a long history 
of collaboration and have developed venues that will allow both 
Departments to continue to work together to find better and more 
effective ways to meet the needs of adults seeking education services. 
We have begun working with the Department of Education to develop 
proposed principles for re-authorizing WIA in order to ensure that 
education and training activities are delivered in a manner that 
provides the best results of these joint investments. In addition, both 
Departments are active members of the Adult Learning Strategies 
Workgroup. This workgroup serves to identify and integrate Federal 
programs and services to develop new service models and promote adult 
education and literacy.
    Recently, Labor issued Training and Employment Guidance Letter 14-
08 directing that Workforce Investment Act (WIA) funds included in the 
Recovery Act may be used for adult education, including basic or 
English language education, as delivered through community colleges and 
other high-quality public programs and community organizations that 
provide such services. Secretary Duncan and I are working to ensure 
that other substantial investments made possible by the Recovery Act, 
such as the $500 million made available for grants in the renewable 
energy and energy efficiency industries, will include provisions 
promoting services with a focus on degree or certificate attainment for 
low-income and displaced workers, and for high school dropouts. To 
support these efforts the Departments of Education, Energy, and Labor 
have entered into a Memorandum of Understanding (MOU) intended to 
strengthen communication and the partnerships among the three 
Departments. Some of the activities that will result from the MOU 
include: (1) each Department notifying the other two Departments of 
relevant awards made with Recovery Act or appropriated funds; (2) each 
Department disseminating information about relevant programs and 
activities carried out by the other two Departments; and (3) the 
Departments working together to develop mutually supportive and 
reinforcing projects with aligned goals to ensure the development of 
career ladders, lattices, and pathways for jobs in energy efficiency 
and renewable energy fields.
    Another example of our collaboration concerns the next round of 
Community-Based Job Training grants, funded by our fiscal year 2009 
appropriations. The grants have historically focused on expanding the 
capacity of community colleges to deliver training for high-growth 
industries. As we shape the next competition, we will work to ensure 
that connections to basic education services are available through 
these grants so that individuals who need to obtain a high school 
diploma or equivalent before progressing to postsecondary level 
education can do so. This approach will align with the fiscal year 2010 
budget's proposal for a ``Career Pathways Innovation Fund'' where we 
would emphasize basic education, English as a Second Language and other 
remediation that prepares individuals to take clear sequences of 
coursework to obtain credentials that lead to better jobs. As part of 
this initiative, we will work with the Department of Education to help 
develop program requirements.
    Finally, I believe that two of the key components of WIA 
reauthorization will be creating a system where adults can move easily 
between the labor market and further education and training in order to 
advance in their careers and the close alignment of every level of 
education and training with economic realities. In the months ahead, I 
look forward to working with Secretary Duncan and Congress to take 
advantage of the opportunities created by WIA reauthorization to 
identify strategies that will better promote and provide adult 
education services to those who need them.
                          wia youth activities
    Question. I commend you for your Department's timely Recovery Act 
guidance to the workforce community regarding the use of Workforce 
Investment Act (WIA) formula funds. Your guidance accurately reflects 
our statutory mandate. We want to ensure these workforce funds are 
spent well and utilized during this time of economic crisis.
    Unfortunately, the state of our economy has worsened dramatically 
since that time, and employment prospects for youth look particularly 
bleak this summer, which is why Congress dedicated $1.2 billion in the 
Recovery Act for the Department of Labor to help at risk youth--with a 
particular focus on providing jobs this summer. I know that your staff 
has been working with State and local areas, encouraging them to run 
robust summer jobs programs this year.
    What can you tell us about your expectations this summer?
    Answer. During the summer of 2009, the Employment and Training 
Administration (ETA) expects to serve between 200,000 to 250,000 youth 
in summer employment, funded by Recovery Act WIA youth funds. Based on 
State and local readiness reviews, local areas are ready to implement 
robust summer employment opportunities this summer, despite the short 
implementation time. ETA expects most local areas to spend roughly 70 
percent of their WIA Youth Recovery Act funds on summer employment 
during the summer of 2009. Some local areas report plans to spend their 
entire allocation of WIA Youth Recovery Act funds on summer employment 
this summer. ETA also expects many local areas to implement some form 
of ``green'' work experiences this summer, although developing 
``green'' opportunities will take time and may not be widespread during 
the summer of 2009.
    Question. Should States and local areas rebuild and offer robust 
summer jobs programs in 2009 with funds from the Recovery Act, I'm 
concerned that they may not be able to sustain them at the recommended 
2010 level. As we move forward and learn about the impact of the 
Recovery Act funds, will you work with me and my colleagues to support 
a robust summer jobs program in 2010?
    Answer. States and local workforce areas are energized with the 
renewed focus on summer employment opportunities. Local areas should be 
able to use a combination of remaining Recovery Act funds, remaining 
regular WIA youth funds from program year 2009, and program year 2010 
WIA youth funds to continue operating summer employment opportunities 
during the summer of 2010.
                  high growth job training initiatives
    Question. As you know, the Recovery Act included $250 million for 
competitive grants to better help meet the need for health care 
workers. I know that the Department is working hard to announce a grant 
solicitation in late spring or early summer for projects that train 
workers in the high demand sectors for the healthcare field such as 
nursing and allied health, where skilled worker shortages are expected 
to reach crisis proportions with the retirement of the baby boomers.
    How is the Department of Labor coordinating this effort with the 
$500 million that was allocated to the Department of Health and Human 
Services (HHS) for health jobs in the Recovery Act?
    Answer. Across the board, the Department is working with our 
Federal partners to connect our workforce development dollars with 
other agencies' research, infrastructure and workforce development 
dollars. We already have a collaborative working relationship with HHS, 
including the Health Resources and Services Administration, and are 
reaching out to others to coordinate our Recovery Act investments. For 
example, we anticipate linking to the newly created Office of the 
National Coordinator for Health Information Technology to better 
understand the job creation and skill needs that will occur as a result 
of those investments. Our goal is not only to link the $250 million for 
training in high growth industries, but to also link the Recovery Act 
WIA formula funding to opportunities that are represented by the 
resources available through HHS for healthcare jobs.
    Question. How can we maximize and better coordinate the health 
workforce initiatives being undertaken by both Departments in the 
fiscal year 2010 budget?
    Answer. The best way to maximize and coordinate both Recovery Act 
and funding through the normal appropriations process is through 
partnership activities. There are many opportunities to share 
information across systems, promote leveraging of resources at the 
local level, and collaborate on workforce solutions for the healthcare 
industry broadly. One approach that the Department of Labor has pursued 
in partnership with HHS and other Federal agencies is supporting 
States' efforts to convene and develop partnerships among providers 
from different programs and funding sources--either around a specific 
sector (such as nursing education capacity) or a specific population 
(such as disadvantaged youth). This effort has fostered a collaborative 
approach to problem-solving at the State and local level, which is 
where an integrated approach can have significant impact.
            transitioning veterans into civilian employment
    Question. Veterans and returning servicemembers have a difficult 
time transitioning to civilian employment for a number of reasons. And, 
I believe that it's our shared responsibility to ensure that those who 
have sacrificed for us on the battle field are fully supported as they 
re-enter civilian life and seek a new career or return to their former 
job. Part of helping ease that transition is creating seamless service 
provision for these members across the Federal Government.
    I was glad to see that this budget request includes additional 
funds for the Veterans' Employment and Training Services Administration 
and other veterans' employment programs at the Department of Labor. But 
I'm concerned that the agencies that serve our veterans need to do more 
to align their services and ease the burden on servicemembers seeking 
their rightfully earned benefits.
    How will you work with the Department of Veterans Affairs, the 
Department of Defense, and other agencies to help ensure veterans 
transition successfully into civilian employment?
    Answer. The Department of Labor along with the Departments of 
Defense (to include the Military Services), Veterans Affairs, and 
Homeland Security has an active Transition Assistance Steering 
Committee that oversees the Transition Services provided by these 
Departments to transitioning servicemembers. This Committee is 
responsible for recent improvements to Transition Services, which 
includes a standardized Transition Assistance Employment Workshop and 
the requirements for attendees to develop a resume. Based on the 
recommendations of the Committee the Department of Labor will conduct a 
TAP Review to assess the current curriculum and assess its relevancy 
and recommend changes and improvements.
    Question. How will you work with ODEP and other agencies within the 
Department to address the needs of veterans and servicemembers who 
suffer a disabling injury during their service and their families who 
care for them during this time who may fear putting their jobs at risk? 
I am particularly interested in your thoughts on how we can better help 
veterans with TBI successfully transition into the civilian world of 
work.
    Answer. VETS works closely with the Office of Disability and 
Employment Policy (ODEP). In consultation with VETS, ODEP established 
the Department's America's Heroes at Work program. This program 
addresses the employment challenges of returning servicemembers living 
with Post Traumatic Stress Disorder (PTSD) and/or Traumatic Brain 
Injury (TBI). The americasheroesatwork.gov web site for employers and 
the workforce development system, helps returning servicemembers 
affected by TBI and/or PTSD succeed in the workplace--particularly 
servicemembers returning from Iraq and Afghanistan. The VETS National 
Office is located adjacent to that of ODEP, which facilitates 
collaboration on projects serving the employment needs of disabled 
veterans. In recent years VETS and ODEP have been among the sponsors of 
the annual U.S. Business Leaders Network (USBLN) conference.
    A key employment initiative for which VETS has employed expertise 
and assistance from the ODEP is the Recovery and Employment Assistance 
Lifelines Program (REALifelines). REALifelines is a program sponsored 
by the U.S. Department of Labor, military medical transition centers, 
and career workforce agencies located in hometowns across the country. 
The program supports the economic recovery and reemployment of 
transitioning wounded and injured servicemembers and their families by 
identifying barriers to employment or re-employment and addressing 
those needs at the earliest point possible during transition from 
military service. ODEP has provided expertise to VETS regarding 
supporting and assistive services for this population of veterans. A 
venue for discussing associated issues is an ODEP America's Heroes at 
Work Committee on which VETS is a permanent member. The REALifelines 
program links servicemembers with local professionals in their hometown 
communities to support their economic recovery and re-employment 
through a range of services. As part of the program, wounded and 
injured servicemembers, and their spouses, are eligible for services 
offered at more than 3,000 One-Stop career centers of the Employment 
and Training Administration's Workforce Investment System.
            community service employment for older americans
    Question. The Senior Community Service Employment Program (SCSEP) 
is the only program at the Department of Labor that provides intensive 
services for low-income older workers. Its dual mission of both 
community service and employment is unique and highly effective, 
especially during these tough economic times. However, I am concerned 
that despite the worst unemployment levels for older workers since 
World War II, the Department's budget recommended a less than 1 percent 
increase for this program in 2010. Congress did provide $120 million in 
additional funds for SCSEP in the Recovery Act, but the program is 
still only able to serve less than 1 percent of the eligible 
population. And our low-income seniors are hurting.
    What plans do you have to strengthen and enhance the SCSEP program?
    Answer. The Recovery Act provided SCSEP with an additional $120 
million through the end of program year 2009. The regular program 
increase for program year 2010 will maintain the program at its current 
level. The program year 2009 funding and program year 2010 requested 
funding are each sufficient to fund 59,316 participant slots in the 
regular program per year, or approximately 91,000 individual persons 
each year, depending on the program turnover rate and the ability of 
participants to find unsubsidized employment.
    The Recovery Act funding will support approximately 13,000 
additional participants in program year 2009 and cover increased 
participant wages due to the July 24, 2009 increase in the Federal 
minimum wage. The total number of individuals served with Recovery Act 
funds is also dependent on the turnover rate and ability of 
participants to transition to unsubsidized employment.
    The Department intends to continue its effort begun last year to 
focus technical assistance on the lower performing grantees, helping 
them to appropriately evaluate and diagnose their performance issues to 
lead to more effective improvement strategies. The Department has begun 
utilizing more online training opportunities for grantees through 
Webinars and other electronic tools, thus enabling grantees to receive 
needed technical assistance at any time. Technical assistance is also 
focused on ensuring grantees effectively coordinate the delivery of 
services including encouraging better services for older workers at 
One-Stop Career Centers.
    In an effort to serve participants more effectively, the Department 
required in the 2006 competition for national grantees that national 
grantee service areas be more contiguous and less duplicative of other 
service providers. As a follow-up to this effort, the Department 
intends to work with the State and territorial grantees to consider 
more efficient assignment of their service areas which will encourage 
management efficiencies. This will need to be accomplished on a State-
by-State basis before the next national grantee competition in 2011.
    Question. What plans do you have to better serve older workers 
through the One Stop Career Center network?
    Answer. The Department will soon launch an initiative to increase 
the public workforce system's capacity to effectively serve an aging 
worker population, as well as to train workers age 55 and older for 
jobs in high growth, high-demand industries that are critical to 
regional economies. The Department plans to award $10 million in grant 
funds to 10 organizations that connect older Americans to career 
opportunities through the ``Aging Worker Initiative: Strategies for 
Regional Talent Development.''
    The Department has developed a protocol on serving older workers 
aimed at the workforce system to articulate the various roles and 
responsibilities of all the stakeholders, including the One Stop Career 
Centers, the State and local Workforce Boards, mature worker 
intermediaries and service providers, business and industry employers, 
and the Department itself. This protocol was shared through Training 
and Employment Notice 16-04, Protocol for Serving Older Workers, and 
subsequently posted on our website for ongoing access. In the coming 
year, the Department plans to reinforce the activities articulated in 
the protocol.
    The Department has also encouraged enhanced services to older 
workers through the One Stop Career Center network through technical 
assistance that combined workshops and through online assistance on 
www.workforce3one.org, ETA's knowledge sharing and learning platform. 
Nearly 50,000 stakeholders from the workforce system use this Web site 
to participate in online learning events (Webinars); to learn about 
promising practices or new research on workforce topics; and to engage 
in networking opportunities with workforce system peers. In the past 3 
years, ETA has hosted numerous Webinars on effective strategies for 
serving older workers and current issues impacting older workers, such 
as displacement.
    Question. Will you be willing to work with Congress to do so?
    Answer. The Department will be happy year to work with Congress to 
ensure our programs are strengthened and enhanced to effectively serve 
older workers.
                    career pathways innovation fund
    Question. I am very interested in your Career Pathways Innovation 
Fund proposal in your 2010 budget request. As you know, developing 
career pathways is an important focus for me, and I look forward to 
working with you on this important initiative. I believe that we need 
to create strong career ladders that can help our students and current 
workers, regardless of their skill levels, move up the economic ladder.
    How do you envision the workforce system, community colleges, and 
our education systems coordinating with employers and labor 
organizations in high demand or emerging industry sectors to accomplish 
the goals of this program?
    Answer. We appreciate your interest in creating strong career 
ladders and helping workers advance in their careers. You are correct 
that partnerships will be key to implementing this new initiative. This 
initiative is the outgrowth of an industry sector approach to workforce 
solutions. Business, industry, and labor define competencies and skills 
and work collaboratively with education partners to map corresponding 
education and career pathways with supporting curriculum to achieve 
industry recognized credentials. The community college is the focus of 
this initiative, but there is an expectation that the development of 
successful career pathways program will require engagement with 
business and industry, the full spectrum of education partners, labor 
organizations, the workforce system, and others. There will also be a 
need to ensure that not only traditional students, but also dislocated 
workers and transitioning adults have access to the pathways. The 
workforce system is a key partner for this purpose. The Department 
intends to structure the competitive grant process to require these 
strategic partnerships.
                      work incentive grant program
    Question. We have heard much in a recent series of Workforce 
Investment Act listening sessions about the challenges many job seekers 
with disabilities have in accessing one stop services and through the 
centers and through their programs. Together with some of my 
colleagues, we sponsored these sessions where stakeholders in the 
system could provide feedback about what has worked and should be 
refined and retained to help workers, job seekers and industry; what 
key challenges need to be addressed; and what innovative policy ideas 
should be considered to modernize the WIA as we move forward with re-
authorization.
    One of the key ways to improve accessibility for one stop services 
was the disability navigator system supported through the Work 
Incentive Grant program. While I understand the rationale for 
eliminating this program after a 7-year ``pilot,'' I'm concerned about 
the continuation of services provided by disability navigators or other 
promising practices to help individuals with disabilities through the 
One Stop system. And your budget states your expectation that there 
will be an increase in workforce service levels to job seekers with 
disabilities through the One Stop Career Center system in 2010.
    What are your plans to ensure that the State and local area One 
Stop service delivery networks meet this expectation, and how will you 
know whether it is met?
    Answer. While the Department has recommended phasing out direct 
funding for this program, it is actively working with States to utilize 
other available Federal and State resources to support the Disability 
Program Navigator model, such as Wagner-Peyser funding, and funding for 
participation as a Ticket to Work Employment Network. The 
administration and the Department continue to have a strong commitment 
to ensure that individuals with disabilities receive the services they 
need to be successful in the workplace.
    Furthermore, the Department recognizes that in an economic downturn 
and a tight labor market, individuals with more barriers to employment 
have the potential to be left behind. The Department is working to 
ensure all disadvantaged populations continue to have access to the 
resources of the public workforce system and benefit from the new 
infusion of resources provided by the Recovery Act. Specifically, the 
Department is requiring States specify how they will ensure a continued 
focus on disadvantaged populations (which include individuals with 
disabilities) in modifications to their WIA and Wagner-Peyser State 
Plans, which outline their Recovery Act strategies. In addition, we 
provide continuous technical assistance to the workforce system through 
Webinars and other means and have already produced a webinars focusing 
on how to ensure individuals with disabilities are served with these 
new resources.
    I have also requested an increase of $10 million over fiscal year 
2009 for the Office of Disability Employment Policy. This increase will 
support a new initiative that builds upon the lessons learned through 
the Disability Navigator Program, and focuses on working with 
employers, the One-Stop system, and other stakeholders to vigorously 
promote the hiring, job placement and retention of individuals with 
disabilities, particularly youth, in integrated employment, 
apprenticeship and pre-apprenticeship programs, and community service 
activities.
    Question. Will you keep us informed of the system's progress in 
serving job seekers with disabilities?
    Answer. The Department will be happy year to continue to 
communicate with Congress on its service delivery strategies and 
initiatives for serving job seekers with disabilities.
                         noncompetitive grants
    Question. Over the past 3 years there have been reports by the 
General Accountability Office, Congressional Research Service, and the 
Department of Labor Inspector General about the excessive awarding of 
noncompetitive grants during the previous administration. This was the 
subject of my subcommittee hearing last September and at several 
previous Appropriations subcommittee hearings. Congress followed-up by 
writing language into the Labor HHS appropriations bill to require 
competitive grant making.
    What will be the Department's approach to noncompetitive grants 
under your leadership?
    Answer. The Department of Labor embraces the value of the 
competitive grant making process as the best vehicle through which to 
select those entities most qualified to carry out its discretionary 
grant programs effectively. We plan to carefully review each request 
for renewal of noncompetitive awards provided under the last 
administration through the Department's published guidance regarding 
competitive exceptions, with an eye to increasing the use of 
competitive grants.
    The Department will comply with the Federal Grant and Cooperative 
Agreement Act, but also recognizes the occasional need to apply legal 
exceptions to its general competitive award policy to achieve specific 
program benefits. In such instances, the Department has established and 
implemented a management process to review proposed exceptions to 
competitive procedures for grants and contracts to ensure that they are 
fully justified. Specifically, a Procurement Review Board, consisting 
of senior staff from four agencies, reviews the proposed noncompetitive 
actions and makes a recommendation to the Chief Acquisition Officer for 
final disposition.
    The Department of Labor is also committed to the principles 
identified in the President's March 4, 2009 memorandum to agencies 
regarding the use of contracts, and will seek to improve the 
effectiveness of acquisition practices and the results achieved from 
contracts by maximizing the use of competition where appropriate.
                     wia dislocated workers formula
    Question. As we discussed at the hearing, I share the concern of 
other members about the 2009 WIA Dislocated Worker funding distribution 
that, because of the formula factors, meant that some States that are 
hurting the most saw a reduction in their funds. While Congress 
considers how to remedy this issue in reauthorization, these States 
will need relief. One of the purposes of the National Emergency Grants 
(NEG) under WIA is to address situations like this.
    I appreciate your support on this issue, and I want to be clear on 
your intent to use some of the NEG funds you received through ARRA and 
fiscal year 2009 appropriations for this purpose.
    Do you plan to use NEG funds to help States who have a high rate of 
unemployment, particularly those greater than the national average, and 
who have received less WIA dislocated worker formula funds in the 
fiscal year 2009 distribution compared to the fiscal year 2008 
distribution through no fault of their own? If so, what are your plans 
for doing so, and how soon could States expect to see those funds?
    Answer. While the Department does not plan to provide on a routine 
basis NEGs to States that received less program year 2009 WIA formula 
funds than they did in program year 2008, the Department is prepared to 
provide NEGs when significant worker dislocation events create a need 
that cannot reasonably be expected to be accommodated within the 
ongoing operations of the WIA Dislocated Worker formula program, 
including the discretionary resources available to the States. Once the 
affected States demonstrate significant usage of both their program 
year 2008 WIA Dislocated Worker formula funds and their Recovery Act 
formula allocations, the Department will consider NEG applications to 
temporarily expand service capacity at the State and local levels by 
providing funding assistance in response to significant economic 
events.
    In addition, a new type of NEG was created after the passage of the 
Recovery Act, to address the dynamics associated with this particular 
economic downturn. Based on the extraordinary effect that the economic 
downturn has had on the labor market and available re-employment 
resources, requests can be made for NEG funds to replenish WIA 
Dislocated Worker formula funds where the applicant has spent 95 
percent of both their current program year and Recovery Act Dislocated 
Worker formula funds. In the event that a State or local area is nearly 
out of WIA Dislocated Worker formula funds, this type of NEG can be 
used to provide the same services available under a State or local 
area's WIA Dislocated Worker formula program until additional WIA 
Dislocated Worker formula resources are made available.
    Question. After reviewing the amount of funds you need to provide 
temporary relief to these States and ensuring you have funds in reserve 
for unexpected layoffs or disasters, please inform the Senate 
Appropriations Committee if you need additional funds and how much.
    Answer. The Department believes with the combination of fiscal year 
2009 National Reserve and Recovery Act resources, adequate funding is 
available to support the use of NEGs as described above. We would also 
appreciate the support of the Committee for the increase of $71 million 
that is requested in fiscal year 2010 for the Dislocated Worker 
National Reserve, as these resources will be critical to meeting the 
needs of dislocated workers into the subsequent program year.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
                         farm labor conditions
    Question. How do you consider farm labor conditions in the United 
States? The Department of Labor has not been very engaged in the issues 
associated with farm labor. What do you see as the Department of 
Labor's role moving forward?
    Answer. Although conditions may have improved for some agricultural 
workers, these workers continue to be among the most vulnerable in the 
workforce. According to a 2008 United States Department of Agriculture 
(USDA) report (Kandel, W. ``Profile of Hired Farmworkers, A 2008 
Update.'' USDA, ERS Economic Research Report No. 60, July, 2008. (38)), 
farmworkers remain ``among the most economically disadvantaged working 
groups in the United States.'' and ``poverty among farmworkers is more 
than double that of all wage and salary employees.'' The report goes on 
to note that not only do farmworkers face workplace hazards similar to 
those found in other industrial settings, they confront a number of 
additional hazards, such as pesticide exposure, sun exposure, 
inadequate sanitary facilities, and crowded and/or substandard housing.
    Being from the State of California, I have a personal interest in 
ensuring that this Department does all it can do to protect the welfare 
of those workers who plant our crops, harvest our vegetables, and put 
food on the tables of homes across this country. The President's fiscal 
year 2010 budget request for the Department's Wage and Hour Division 
will enable that agency to restore its investigator levels to those 
seen prior to 2001. These new investigators will support our goal of 
increasing compliance with and strengthening enforcement of the labor 
standards that protect vulnerable workers and in particular, 
farmworkers. Coupled with this emphasis on vigorous enforcement, the 
Wage and Hour Division will continue its outreach efforts to community 
groups that assist farmworkers, so that those groups can help educate 
agricultural workers about their rights and about their employers' 
obligation to provide a safe and fair workplace for them.
    Our commitment to protecting farmworkers is evidenced by the recent 
action the Department took to ensure that the regulations governing 
worker protections under the Immigration and Nationality Act's H-2A 
temporary nonimmigrant agricultural worker program adequately protect 
the workers in this program. For that reason, on May 29, 2009, we 
announced the suspension of the H-2A regulations promulgated under the 
prior administration effective June 29, 2009. Unfortunately, on June 
29, 2009, the United States District Court for the Middle District of 
North Carolina preliminarily enjoined the suspension.
                     coalition of immokalee workers
    Question. The Coalition of Immokalee Workers (CIW) is a community-
based organization of mainly Latino, Mayan Indian, and Haitian 
immigrants working in low-wage jobs throughout the State of Florida.
    They organize for the following: a fair wage, better and cheaper 
housing, stronger laws and stronger enforcement against those who would 
violate workers' rights, the right to organize on our jobs without fear 
of retaliation, and an end to indentured servitude in the fields.
    If you are aware of the CIW's efforts to improve conditions in 
Immokalee, can you speak to the market-based, voluntary compliance 
approach--Campaign for Fair Food--spearheaded by the CIW and embraced 
by food industry leaders?
    Answer. The Campaign for Fair Food was initiated in April 2001 when 
the Coalition of Immokalee Workers' farmworkers, who were harvesting 
tomatoes for suppliers of retail food corporations, called for a 
nation-wide consumer boycott of Taco Bell restaurants and products. 
Over the next few years, the campaign was able to obtain agreements 
with large purchasers of tomatoes including Taco Bell, McDonald's, Bon-
Appetit, Whole Foods Market, and Burger King to improve conditions for 
field workers. These agreements increased the wages by a penny a pound 
and led to additional monitoring of field conditions.
    We understand that the premises of the Campaign for Fair Food are 
that:
  --Retail food corporations have a responsibility to improve the wages 
        of farmworkers because their procurement practices have helped 
        to suppress those wages at a sub-poverty level.
  --Farmworkers must be full partners with retail food corporations--
        and the growers that supply them--in protecting and advancing 
        their own rights (such as the right to overtime and the right 
        to organize), as a matter of human dignity and effectiveness in 
        changing the conditions in the fields.
  --Consumers have a responsibility to influence retail food 
        corporations to ensure the human rights and dignity of the men 
        and women harvesting produce through purchasing decisions, 
        shareholder actions, and shared public witness.
    The Department applauds all efforts to increase wages and improve 
working conditions for farmworkers and looks forward to working in 
concert with such organizations to further better the lives of the 
laborers that feed families across this country and others.
    Question. I have been working closely with the CIW regarding the 
conditions found on tomato farms in Florida. Would you be willing to 
look further into the situation in Immokalee, Florida?
    Answer. I will review the conditions in Florida and the Department 
will investigate as appropriate.

                           SUBCOMMITEE RECESS

    Senator Harkin. Thank you very much, Madam Secretary.
    The subcommittee will stand recessed.
    [Whereupon, at 10:39 a.m., Wednesday, May 13, the subcom-
mittee was recessed, to reconvene subject to the call of the 
Chair.]

</pre></body></html>
